<html>
<title> - PASSPORT FRAUD: AN INTERNATIONAL VULNERABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







             PASSPORT FRAUD: AN INTERNATIONAL VULNERABILITY

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2014

                               __________

                           Serial No. 113-62

                               __________

       Printed for the use of the Committee on Homeland Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-781 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Vacancy
Vacancy                              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6

                               Witnesses

Mr. Alan D. Bersin, Assistant Secretary of International Affairs 
  and Chief Diplomatic Officer, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. John P. Wagner, Acting Deputy Assistant Commissioner, Office 
  of Field Operations, Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................     9
Ms. Brenda S. Sprague, Deputy Assistant Secretary for Passport 
  Services, Bureau of Consular Affairs, U.S. Department of State:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Mr. Shawn A. Bray, Director, Interpol Washington, U.S. National 
  Central Bureau, U.S. Department of Justice:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Letter.........................................................    34

                                Appendix

Questions From Honorable Eric Swalwell for Alan D. Bersin........    39
Questions From Honorable Eric Swalwell for Jack P. Wagner........    40
Questions From Honorable Eric Swalwell for Brenda S. Sprague.....    41
Questions From Honorable Eric Swalwell for Shawn Bray............    42

 
             PASSPORT FRAUD: AN INTERNATIONAL VULNERABILITY

                              ----------                              


                         Friday, April 4, 2014

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Palazzo, Jackson Lee, O'Rourke.
    Also present: Representative Swalwell.
    Mrs. Miller. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, will come to 
order.
    This subcommittee is meeting today to examine the issue of 
passport security.
    We are certainly pleased to be joined by Mr. Alan Bersin, 
who has been with this committee in the past, and we certainly 
appreciate his attendance here today. He is the assistant 
secretary for international affairs at the Department of 
Homeland Security.
    Mr. John Wagner, who has also been before this subcommittee 
before. We appreciate his attendance today. He is the deputy 
assistant commissioner at U.S. Customs and Border Protection.
    Ms. Brenda Sprague, who is the deputy assistant secretary 
for passport services at the Department of State.
    Mr. Shawn Bray, who is the director of INTERPOL Washington, 
United States National Central Bureau.
    I will more formally introduce them in just a moment. But 
let me recognize myself for an opening statement here this 
morning.
    First of all, of course, let me start by saying, all of us, 
our thoughts and prayers are with the families of those killed 
and wounded at Fort Hood. This is a terrible, terrible incident 
that happened in my Ranking Member's State of Texas.
    Certainly, as we begin the very difficult task of finding 
what went wrong there, we have to be mindful to support the men 
and women who wear the uniform not only when overseas, but 
certainly when they return home here as well.
    This morning we are going to be talking about travel 
document security, which is a cornerstone of the United States 
effort to secure our homeland. It is integral to pushing our 
borders out.
    The ability of terrorists and others who would seek to do 
us harm hinges, in large part, on the ability to travel, and if 
you make it hard for terrorists to cross our borders without 
being detected, future acts of terrorism hopefully can be 
prevented.
    I want to begin by commending the Department of Homeland 
Security and the Department of State for the great progress 
made as we have strengthened the so-called outer ring of border 
security.
    Today we conduct more vigorous vetting earlier in the 
process. We station DHS personnel in high-risk countries to 
prevent persons of concern from boarding the plane or getting a 
visa, and we are using biometrics to detect visa fraud.
    In the past 3 years, this subcommittee has actually held 
six various hearings on visa and document security because we 
certainly understand the importance of 9/11 Commission's 
recommendations, and one of their conclusions, actually, as 
they said in that report, is that, for terrorists, travel 
documents are as important as weapons.
    Vulnerabilities in our document security can be exploited 
by those who would do us harm. So we must have robust measures 
in place to deter and to ultimately detect those traveling on 
false documents.
    To that end, we were certainly dismayed to learn from press 
reports that two of the passengers on the Malaysian Flight 370 
boarded the aircraft using stolen passports.
    While, of course, as has been reported, we don't have any 
reason to believe that these individuals were involved in an 
act of terrorism, it certainly highlights the vulnerability in 
the aviation systems abroad.
    Our hearts, of course, and thoughts and prayers go out to 
the families who are still waiting to learn what has happened 
to their loved ones, and we certainly hope and pray that that 
plane will soon be found.
    In the United States, through the work of the Department of 
Homeland Security, we have made the necessary changes to keep 
the flying public secure, and the ability of passengers to 
board a flight bound for the United States with a known lost or 
stolen passport is very, very low.
    In the years after 2001, the international community, 
through INTERPOL, created a lost and stolen travel document 
database that gives countries a mechanism to both send the 
information to a central depository and to check against that 
database to make sure no one could enter a country or board a 
plane with a known lost or stolen passport.
    Unfortunately, only three countries in the world routinely 
check flight manifests against that database: The United 
States, of course; the United Kingdom; and the United Arab 
Emirates.
    So there is no question that more countries should follow 
our lead. Otherwise, international travelers, including 
Americans who travel internationally, are at risk.
    According to INTERPOL, in 2013, travelers boarded 
international flights more than a billion times without having 
their passport numbers checked against the database.
    Tools are in place to easily determine if a passport has 
been reported missing, and we should use every avenue at our 
disposal to encourage countries to do the right thing, 
including offering technical assistance where appropriate.
    In addition to not consistently checking the lost and 
stolen passport database, most countries are also not 
consistently sharing lost and stolen passport information with 
the INTERPOL database.
    The overwhelming majority of the 40 million records in the 
lost or stolen database comes from Visa Waiver Program 
countries in large part because it is conditioned for visa-free 
travel to the United States.
    However, those countries do not routinely check their 
flight manifests against the database and, as a result, I will 
be introducing legislation and legislative solutions to 
encourage countries within the Visa Waiver Program to do so.
    Because without timely reporting of lost and stolen travel 
documents, it becomes very difficult for CBP, through their 
advanced targeting system, to determine if someone is flying on 
a false document before they present themselves to a Customs 
Officer at an airport.
    If a terrorist is intent to hijack an airplane, it might be 
too late. Even though the United States has a robust screening 
and vetting process for travelers, it doesn't mean that our 
work in this area is done.
    I understand that CBP just recently began to check 
passengers on out-bound flights against the lost and stolen 
database, and we certainly are interested in hearing from our 
witnesses today why that wasn't done before.
    Finally, I want to get an update on the work that the 
Department of Homeland Security and CBP and the State 
Department and INTERPOL have done since 9/11 to prevent those 
with lost, stolen, and fraudulent passports from getting on a 
plane bound for the United States.
    While Americans should be confident that DHS is doing good 
work vetting all of the appropriate databases, we can and 
should work with our international partners to strengthen 
aviation security for Americans who travel abroad. This 
subcommittee stands ready to assist in any way that we can.
    The Chairwoman would now recognize my Ranking Member on the 
subcommittee, the gentlelady from Texas, Ms. Jackson Lee, for 
her opening statement.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman.
    Good morning to the witnesses. Thank you so very much for 
your presence here today.
    Thank you again, Madam Chairwoman, for reminding us, as I 
intended to do, of the tragedy that occurred in my home State, 
my neighbors at Fort Hood, Texas, and to again offer to those 
men and women who have been brave enough to put on the Nation's 
uniform to fight in far-away places our deepest concern and 
sympathy, certainly for the families who have lost their loved 
ones who, as I indicated, are willing to serve in the United 
States military and certainly those who are injured.
    This is the second time that this tragedy occurred at Fort 
Hood and the second time that we have had to embrace those who, 
as I said, are our neighbors. I mourned with them in 2009 and 
will continue to do so now.
    I hope this committee will have an opportunity to address 
the question of protecting, even as this is a military issue--
protecting our men and women while they are on domestic soil 
and view it as a cause for zero tolerance for these kinds of 
incidences on the Nation's domestic military bases.
    Again, my sympathy to not only the men and women at Fort 
Hood and the leadership, but also to the people of the State of 
Texas.
    This is another tragedy that we are facing and trying to 
find solutions, and I would make mention that, even as this has 
gone into many, many days, that we still express our concern 
for the families of the passengers of Malaysia Airlines Flight 
370. I hope that it will not be their final end that there has 
been no determination as to what occurred to that particular 
flight.
    But today I am appreciative that we are holding this 
hearing, as I spoke to the Chairwoman in the immediacy of the 
hours of determining that there were passengers on that flight 
that had fraudulent passports.
    Certainly there have been continuing investigations, and 
whether or not we have concluded that there was no connection, 
we do know that passengers traveled with fraudulent passports 
and as well that American citizens were on that flight.
    While many questions remain unanswered regarding the tragic 
disappearance of Flight 370, we do not know, as I indicated, 
what connection those two passengers may have had to its 
demise, if any.
    Two Iranian nationals were allowed to travel using Italian 
and Austrian passports that had been entered into INTERPOL's 
Stolen and Lost Travel Document database in 2012 and 2013.
    Reports suggest that these individuals were not criminals 
or terrorists, but, rather, asylum seekers hoping to reach 
Europe.
    Nevertheless, the fact that at least in certain countries 
travelers can readily board aircraft using passports that do 
not belong to them is a cause for concern. If a couple of 
asylum seekers can do it, so can terrorists or criminals.
    After 9/11 and even in other countries before that, we know 
that we live in a different territory with different actors and 
different reasons for their actions. In fact, there are known 
examples of terrorists traveling on fraudulent documents.
    According to INTERPOL, Ramzi Yousef, convicted of 
masterminding the 1993 World Trade Center bombing in New York, 
committed his crimes after traveling internationally on a 
stolen passport.
    Also, Samantha Lewthwaite, the so-called ``White Widow'' of 
a London July 2005 suicide bomber, is wanted in Kenya and 
currently at large with aliases linked to a fraudulent passport 
and a passport reported stolen--evidence that this is a 
problem.
    It is my understanding that the United States is ahead of 
most of the rest of the world when it comes to preventing 
individuals from traveling on lost, stolen, or fraudulent 
documents.
    The Department of Homeland Security systematically checks 
all travelers' documents against appropriate lost and stolen 
databases. These checks yield results.
    For example, in fiscal year 2013, U.S. Customs and Border 
Protection, CBP, reviewed 17,710 possible hits against lost and 
stolen databases, resulting in 496 individuals being denied 
from boarding planes to the United States. Already in fiscal 
year 2014 CBP has reviewed 10,806 possible hits, resulting in 
159 individuals being denied boarding.
    I also want to thank Homeland Security and the various 
agencies relevant to the issue of our border security for the 
extended perimeters and the improved security that we have had 
post-9/11.
    We are clearly, as I have often said, in a better place 
than we were. We thank them again for their service and what we 
have been able to benefit from.
    Since the Flight 370 incident, DHS has expanded its checks 
to include not just arriving passengers, but, also, those 
departing this country. While overdue, this step should close a 
remaining loophole regarding travelers using fraudulent 
documents to fly to or from this country.
    I hope to hear from our DHS witnesses today about why 
departing passengers had not previously been included in their 
checks and whether any analysis had been done subsequently to 
determine whether passengers had been departing the United 
States on documents that do not belong to them.
    I also hope that we will be able to embrace and include the 
airline industry as we move forward on a number of ways to 
ensure the safety and security of the traveling public.
    I hope to hear from all of our witnesses about how we can 
encourage our international partners to follow the lead of the 
United States and a handful of other countries that regularly 
check travel documents against INTERPOL's SLTD database.
    It is my understanding that traveling on lost, stolen, or 
otherwise fraudulent travel documents is already commonplace in 
certain parts of the world. Doing so is made possible because 
fewer than 20 of INTERPOL's 190 countries systematically check 
passports against SLTD.
    Although the Flight 370 incident has focused attention on 
the vulnerability, it was already known to INTERPOL. In fact, 
speaking at the seventh Annual ID WORLD Summit in February just 
before flight the Flight 370 incident, INTERPOL Secretary 
General Ronald K. Noble lamented that only a handful of 
countries are systematically using SLTD to screen travelers 
when that technology and device is available, leaving our 
global security apparatus vulnerable to exploitation by 
criminals and terrorists.
    The world is getting smaller. We travel from all over the 
world to all over the world. This is simply unacceptable.
    I hope to hear from our witnesses today about how we can 
encourage other countries, particularly those we work closely 
with on aviation security matters, to begin regularly screening 
passenger documents against INTERPOL's database.
    It is in that vein that I will be looking to draft 
legislation dealing with the enforcement aspect of this 
particular aspect of aviation travel.
    The security of the traveling public, including U.S. 
citizens, traveling between foreign countries could well be at 
stake, as well as those traveling from foreign countries to the 
United States, as well as Americans leaving our soil and 
traveling elsewhere around the world.
    Again, I thank Chairwoman Miller for holding today's 
hearing and the witnesses for joining us.
    At this time I ask unanimous consent to allow Mr. Swalwell, 
a Member of the full committee, to sit and question the 
witnesses at today's hearing.
    Mrs. Miller. Without objection.
    Ms. Jackson Lee. I acknowledge Mr. O'Rourke as being 
present at the hearing today.
    I yield back, Madam Chairwoman.
    [The statement of Ranking Member Jackson Lee follows:]
             Statement of Ranking Member Sheila Jackson Lee
                             April 4, 2014
    Good morning. At the outset, I would like to say that my thoughts 
and prayers are with the passengers of Malaysia Airlines Flight 370 and 
their loved ones.
    I would like to thank Chairwoman Miller for holding today's hearing 
to discuss security concerns regarding individuals traveling on lost, 
stolen, or fraudulent passports.
    While many questions remain unanswered regarding the tragic 
disappearance of Flight 370, we do know that two passengers on that 
flight boarded the aircraft using stolen passports. Two Iranian 
nationals were allowed to travel using Italian and Austrian passports 
that had been entered into INTERPOL's Stolen and Lost Travel Document 
(SLTD) database in 2012 and 2013. Reports suggest that these 
individuals were not criminals or terrorists, but rather asylum seekers 
hoping to reach Europe.
    Nevertheless, the fact that at least in certain countries travelers 
can readily board aircraft using passports that do not belong to them 
is cause for serious concern. If a couple of asylum seekers can do it, 
so can terrorists or criminals. In fact, there are known examples of 
terrorists traveling on fraudulent documents.
    According to INTERPOL, Ramzi Yousef, convicted of masterminding the 
1993 World Trade Center bombing in New York, committed his crimes after 
traveling internationally on a stolen passport. Also, Samantha 
Lewthwaite, the so-called ``White Widow'' of a London July 2005 suicide 
bomber, is wanted in Kenya and currently at large with aliases linked 
to a fraudulent passport and a passport reported stolen.
    It is my understanding that the United States is ahead of most of 
the rest of the world when it comes to preventing individuals from 
traveling on lost, stolen, or fraudulent documents. The Department of 
Homeland Security (DHS) systematically checks all travelers' documents 
against appropriate lost and stolen databases. These checks yield 
results.
    For example, in fiscal year 2013, U.S. Customs and Border 
Protection (CBP) reviewed 17,710 possible hits against lost and stolen 
databases, resulting in 496 individuals being denied from boarding 
planes to the United States. Already in fiscal year 2014, CBP has 
reviewed 10,806 possible hits, resulting in 159 individuals being 
denied boarding.
    Since the Flight 370 incident, DHS has expanded its checks to 
include not just arriving passengers, but also those departing this 
country. While overdue, this step should close a remaining loophole 
regarding travelers using fraudulent documents to fly to or from this 
country.
    I hope to hear from our DHS witnesses today about why departing 
passengers had not previously been included in their checks, and 
whether any analysis has been done subsequently to determine whether 
passengers had been departing the United States on documents that do 
not belong to them.
    I hope to hear from all of our witnesses about how we can encourage 
our international partners to follow the lead of the United States and 
a handful of other countries that regularly check travel documents 
against INTERPOL's SLTD database.
    It is my understanding that traveling on lost, stolen, or otherwise 
fraudulent travel documents is relatively commonplace in certain parts 
of the world. Doing so is made possible because fewer than 20 of 
INTERPOL's 190 countries systematically check passports against the 
SLTD. Although the Flight 370 incident has focused attention on this 
vulnerability, it was already known to INTERPOL.
    In fact, speaking at the seventh Annual ID WORLD Summit in 
February, just before the Flight 370 incident, INTERPOL Secretary 
General Ronald K. Noble lamented that only a handful of countries are 
systematically using SLTD to screen travelers, leaving our global 
security apparatus vulnerable to exploitation by criminals and 
terrorists. This is unacceptable.
    I hope to hear from our witnesses today about how we can encourage 
other countries, particularly those we work closely with on aviation 
security matters, to begin regularly screening passengers' documents 
against INTERPOL's database. The security of the traveling public, 
including U.S. citizens traveling between foreign countries, could well 
be at stake. Again, I thank Chairwoman Miller for holding today's 
hearing and the witnesses for joining us.
    I yield back.

    Mrs. Miller. I thank the gentlelady.
    Other Members of the committee are reminded that opening 
statements might be submitted for the record.
    We are pleased today to have, as I mentioned, four very 
distinguished witnesses joining us today.
    Ms. Jackson Lee. Madam Chairwoman, would you just allow me 
to indicate that I am called to be part of a quorum in a markup 
and I will be away for just a moment. I thank the Chairwoman 
for her courtesy.
    Mrs. Miller. Certainly.
    It is a busy morning here on the Hill and we are going to 
be having votes a little after 10:00. So we will move along 
here.
    Mr. Alan Bersin is the assistant secretary of international 
affairs and chief diplomatic officer for the Department of 
Homeland Security. Previously, Mr. Bersin served as 
commissioner for the U.S. Customs and Border Protection.
    Mr. John Wagner is the acting deputy assistant commissioner 
for the office of field operations in U.S. Customs and Border 
Protection. Mr. Wagner formerly served as executive director of 
admissibility and passenger programs with responsibility for 
all traveler admissibility-related policies and programs.
    Ms. Brenda Sprague serves as deputy assistant secretary of 
state for passport services in the Bureau of Consular Affairs, 
a position she has held since July 2008. In this capacity, Ms. 
Sprague oversees a network of 28 agencies and centers that are 
responsible for the acceptance, adjudication, and issuance of 
U.S. passports.
    Mr. Shawn Bray is the director of INTERPOL Washington, the 
United States National Central Bureau, a position he has held 
since 2012. As director, Mr. Bray acts on behalf of the 
attorney general as the official U.S. representative to 
INTERPOL. Mr. Bray has been focused on improving partnerships 
between the other 189 INTERPOL member countries and their U.S. 
Federal, State, local, and Tribal law enforcement counterparts.
    The full statements of all of the witnesses will appear in 
the record.
    The Chairwoman now recognizes Mr. Bersin for his statement.

      STATEMENT OF ALAN D. BERSIN, ASSISTANT SECRETARY OF 
   INTERNATIONAL AFFAIRS AND CHIEF DIPLOMATIC OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Thank you, Madam Chairwoman, Mrs. Miller, 
Congressmen O'Rourke and Swalwell. I appreciate this 
opportunity on this subject.
    The International Criminal Police Organization, or 
INTERPOL, is the world's largest transnational police 
association with 190 member countries today. Each member 
country has a National Central Bureau to conduct INTERPOL 
activities and coordinated services within its national 
territory.
    Among the services INTERPOL provides to the law enforcement 
entities of every member country is access to its SLTD, Stolen 
and Lost Travel Document database. This database contains over 
40 million records provided by nearly 170 of the organizations' 
members.
    On March 9, INTERPOL confirmed that two of the passports 
used by passengers to board Malaysia Airlines Flight 370 had 
been recorded in its Stolen and Lost Travel Document database.
    As noted by the Ranking Member, INTERPOL's Secretary 
General Ron Nobel noted, to the surprise of many, that very few 
countries systematically query the SLTD database for the 
purpose of verifying whether a passport has been reported as 
lost and stolen.
    Even more troubling is the minuscule rate at which 
countries outside of Europe, Canada, and the United States 
visa-waiver countries are contributing information to the 
database.
    Madam Chairwoman, as you noted, since 9/11, the United 
States Government and the American people have addressed the 
security vulnerabilities exposed so tragically on that day.
    In the 12 years since, in a thoroughly bipartisan fashion 
in which this committee has played a significant role, we have 
together constructed a multi-layer, fully-automated interagency 
approach to homeland security.
    As additional vulnerabilities have been revealed and are 
revealed, we examine and respond to them appropriately in 
concert with the Congress, as we do so today in the context of 
lost and stolen passports.
    When an individual seeking admission to the United States 
presents a foreign passport, whether he or she seeks admission 
by land, by commercial air or by sea, that passport is screened 
against the SLTD database prior to admission, in fact, in many 
cases on multiple occasions. Now, as Mr. Wagner will explain, 
we also screen out-bound passports in the same way.
    Unfortunately, most countries in the INTERPOL community do 
not screen travelers against the database as thoroughly as we 
do in the United States. Many, not at all.
    More disturbing is the alarming number of countries that 
report very few and, in some cases, no lost or stolen passport 
data to the SLTD database. As a condition for participation, as 
the Chairwoman noted, visa waiver countries are required to do 
so.
    The United States, Canada, and Europe, as well as the other 
VWP partners, accordingly have provided the vast majority of 
the 40 million records in the SLTD database.
    Some of the most populous countries in the world, notably 
including China, India, and Indonesia, have contributed few, if 
any, records to the database.
    Despite the remarkable development of the database, 40 
million records added in the past 12 years, the lack of data 
provided by many INTERPOL member countries remains significant.
    I have had the honor of serving on the INTERPOL executive 
committee and as vice president for the Americas since November 
2012, and I have been urging the organization to prioritize the 
SLTD program and other border security efforts as core 
functions of INTERPOL.
    To be sure, Madam Chairwoman, Congressmen, there are real 
and current challenges to this vision. Despite the fact that 
DHS and the United States National Central Bureau have worked 
to incorporate recommendations for data reporting and response 
times into INTERPOL's standard operating procedures, many 
countries have not been able to connect their agencies and 
INTERPOL does not require them to do so.
    The task ahead is encouraging our partners to more fully 
utilize the SLTD database and to engage in these kinds of 
border screening and security efforts. This can only add to its 
value from the standpoint of American security.
    I look forward to exploring with you how we may best 
approach this latest challenge. It will not be the last, Madam 
Chairwoman and Congressmen, but I take from our past experience 
that we can forge and resolve this matter in a satisfactory 
cost-effective way.
    Thank you for this opportunity again, and I look forward to 
responding to your questions.
    [The joint prepared statement of Mr. Bersin and Mr. Wagner 
follows:]
     Joint Prepared Statement of Alan D. Bersin and John P. Wagner
                             April 4, 2014
                              introduction
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee. Thank you for holding this important 
hearing today to discuss document security in the context of 
international air travel.
    On March 9, the International Criminal Police Organization 
(INTERPOL) confirmed that two of the passports used by passengers to 
board Malaysia Airlines Flight 370 had been recorded in its Stolen and 
Lost Travel Documents (SLTD) database. INTERPOL's Secretary General, 
Ron Noble, noted that very few countries systematically query the SLTD 
database for the purposes of verifying whether a passport has been 
reported as lost or stolen. INTERPOL has said that in 2013 travelers 
boarded flights more than a billion times without having their passport 
numbers checked against the SLTD database. This number does not include 
any flight to the United States, but it is striking nonetheless. Even 
more troubling is the poor rate at which countries outside the U.S. 
Visa Waiver Program (VWP) are contributing information on lost and 
stolen passports to the SLTD database.
    At the moment, our thoughts and prayers are with the missing 
passengers and crew who were on Malaysia Airlines Flight 370. DHS 
appreciates the opportunity to discuss the important steps that we--in 
coordination with our partners at the Department of State and the U.S. 
National Central Bureau (USNCB)--have taken to mitigate vulnerabilities 
associated with persons attempting to travel on lost or stolen 
passports, which has been highlighted by the recent tragedy, and to 
talk about the importance of information exchange to the homeland 
security enterprise.
              the stolen and lost travel document database
    INTERPOL is the world's largest international police organization 
with 190 member countries today. INTERPOL's primary goal is to ensure 
that police around the world have access to the tools and services 
necessary to do their jobs effectively. Among the services INTERPOL 
provides to the law enforcement entities of every member country is 
access to the SLTD database. The SLTD database is maintained by 
INTERPOL, and it contains over 40 million records provided by nearly 
170 of the organization's members.
    It is important to note that when an individual seeking admission 
to the United States, presents a passport, whether by land from Canada 
or Mexico, by commercial air, or by sea on a cruise ship, that passport 
is screened against the SLTD database prior to admission--in fact in 
many cases, they are screened against the database on multiple 
occasions. Unfortunately, most countries in the INTERPOL community do 
not screen travelers against the SLTD database as thoroughly as we do 
in the United States. The ability to screen travel information in 
advance--be it against the SLTD database or a national watchlist that 
included, for example, terrorist information--is an important element 
of effective border and transportation security.
    More disturbing is the alarming number of countries that report 
very little--and in some cases no--lost and stolen passport data to 
INTERPOL for inclusion in the SLTD database. As a condition for 
participation, VWP countries are required to provide lost and stolen 
passport data to INTERPOL for inclusion in the SLTD database or to make 
such data available to the United States through other means as 
designated by the Secretary, and DHS continuously monitors that data to 
ensure compliance by our partners. The United States, Canada, and 
Europe, as well as our other VWP partners have provided the vast 
majority of the 40 million records in the SLTD database.
    Alarmingly, some of the most populous countries in the world 
including China, India, and Indonesia, have contributed few--if any--
records to the SLTD database. Despite the incredible development of the 
SLTD database since its inception following the September 11 attacks--
40 million records added in the past 12 years is a truly noteworthy 
accomplishment--the lack of data provided by many INTERPOL member 
countries remains significant.
    We firmly believe, based on DHS's operational experience since 9/
11, that the automated and depersonalized screening of traveler data 
against derogatory administrative, counterterrorism, and law 
enforcement records is an essential part of the future for homeland 
security efforts around the world. The INTERPOL SLTD database is the 
quintessential example of one way countries can collaborate in 
preventing fraud and subsequent criminal activity. There is no reason 
why a passport should not be scanned every time an individual boards a 
plane to verify that the document provided is valid. These sorts of 
queries can be done almost instantaneously, occur completely 
automatically, and provide a first indicator of suspicion that can 
guide a law enforcement response in concert with the relevant passport 
issuing authority. The process provides significant confidence in the 
legitimacy of the document (assuming of course that the participating 
countries properly and accurately report their data into the SLTD 
database).
                    how the united states uses sltd
    U.S. Customs and Border Protection (CBP) uses the SLTD database and 
data from the Department of State's (DOS's) Consular Lost and Stolen 
Passport (CLASP) and the Consular Visa Lookout and Support System 
(CLASS) in the air, land, and sea environments to verify the validity 
of both U.S. and foreign passports. For VWP travelers, CBP vets all 
Electronic System for Travel Authorization applications against the 
SLTD database. In the land environment, when a traveler arrives at a 
land border port of entry, CBP officers will query the document in 
TECS,\1\ which includes Lost and Stolen U.S. Passports and the INTERPOL 
SLTD for foreign passports. If CBP receives a hit, it refers the 
individual to secondary inspection for questioning. During the 
secondary inspection, CBP determines if the individual is a mala fide 
traveler or if the individual is the true bearer of the reported lost 
or stolen passport.
---------------------------------------------------------------------------
    \1\ TECS (no longer an acronym) is a key border enforcement system 
supporting the vetting of travelers entering the United States and the 
requirements of other Federal agencies used for law enforcement and 
immigration benefit purposes. TECS supports the sharing of information 
about people who are inadmissible or may pose a threat to the security 
of the United States through the creation and query of ``lookout 
records.'' TECS is used by more than 70,000 users, including users from 
more than 20 Federal agencies that use TECS in furtherance of their 
missions. TECS receives and processes traveler manifests from carriers 
and supports primary and secondary inspections for almost a million 
travelers and almost half a million vehicles at United States ports of 
entry each day.
---------------------------------------------------------------------------
    In the air and sea environments, when CBP receives inbound and 
outbound carrier advance passenger information system (APIS) data for 
travelers with a foreign passport, it queries the INTERPOL SLTD 
database for any matches to the document type--passport, number, and 
issuing country. For U.S. citizens utilizing U.S. passports, CBP 
queries TECS for matches to lost, stolen, and revoked U.S. Passports. 
In the air environment, if CBP detects lost, stolen, or revoked 
passports prior to boarding through CBP's pre-departure vetting or 
through the Immigration Advisory Program (IAP), CBP would make a 
recommendation to the air carrier not to board the passenger. If CBP 
notified the carrier, but the traveler was still allowed to board with 
the document that was the subject of a lost or stolen passport lookout, 
the carrier would be subject to a fine for violation of Section 
273(a)(1) of the Immigration and Nationality Act.
    CBP has also developed the Carrier Liaison Program (CLP), which 
enhances border security to the airlines and their security companies 
by identifying improperly documented passengers destined to the United 
States. CLP training enables participants, including airline check-in 
personnel, boarding agents, and security company staff, to receive 
hands-on instruction in fraudulent document identification, passenger 
assessment, impostor identification, and traveler document 
verification. When carriers encounter a lost or stolen travel document, 
CLP training instructs the carriers to contact CBP's Regional Carrier 
Liaison Groups (RCLGs). The RCLG offices are 24/7 operations maintained 
at the airports in New York, Miami, and Honolulu, with each RCLG 
maintaining responsibility for specific areas of the world to respond 
to carrier concerns. The RCLGs will respond in real-time to carrier 
inquiries concerning the validity of travel documented presented. After 
an RCLG determination of the lost/stolen travel document has been made, 
the RCLG will make a recommendation to board the passenger or to deny 
boarding. To date, the CLP has trained 33,600 airline and security 
personnel.
                    interpol and information sharing
    The I-24/7 global police communications system, which our colleague 
Mr. Shawn Bray, the Director of the USNCB, can speak to at great 
length, is a marvel in today's world, and it is one that has largely 
gone unnoticed. Each of INTERPOL's 190 member countries has a National 
Central Bureau (NCB) that is typically housed within that country's 
National police agency. And most significantly, each of these NCBs is 
connected to the I-24/7 secure communications system. By using the 
INTERPOL network, the U.S. law enforcement community can exchange 
information in real time and in a secure manner with our police 
counterparts in every other INTERPOL member country around the world. 
This is an exceptional capability, and we have only begun to tap the 
potential it embodies.
    To be sure, there are real and current challenges to this vision. 
Despite the fact that DHS and the USNCB have worked to incorporate 
recommendations for data reporting and response times into INTERPOL's 
approved SLTD standard operating procedures, INTERPOL does not require 
its member countries to implement them. With regard to screening 
passengers against the SLTD database, many countries do not have 
advance passenger information capabilities to screen travelers prior to 
arrival, or they have been unable to connect their immigration agencies 
to their NCBs in order to screen documents at the time of arrival. Many 
countries have been unable to connect their agencies that record lost 
or stolen passport information to their NCBs, so reporting that data 
has been a challenge. This may be due to a lack of the proper 
information technology systems within the country, internal 
restrictions on data sharing between agencies, or simple bureaucratic 
complexity (for example, some countries record lost identity documents 
at local police stations). These are all best practices that we employ 
here in the United States that we shall continue to encourage our 
partner countries to adopt.
    To help address these challenges among its member countries, 
INTERPOL--with assistance from DHS--has recently established the 
Integrated Border Management Task Force (IBMTF). The IBMTF is charged 
with assisting member countries in their approach to border management, 
and how to utilize the tools and services INTERPOL offers to that end. 
The project has included, for example, trainings for immigration 
officials on using the SLTD database to screen in-bound passengers. The 
intent is to help member countries move toward more systematic 
approaches to the use of the SLTD database in daily operations. DHS 
remains supportive of INTERPOL's efforts in this regard.
    INTERPOL understands, as we do at DHS, that sharing data on lost 
and stolen passports is an essential and fundamental part of protecting 
people against crime and terrorism. Whenever you are pulled over by 
State or local law enforcement, your driver's license is vetted to 
verify its validity and to determine any derogatory information for 
you. The SLTD database operates on the same principle, just on a global 
scale, and all countries should be encouraged to adopt similar 
measures. INTERPOL's SLTD database provides them with that opportunity. 
It is already built, already in use, and the United States has already 
proven it is a reliable repository for lost and stolen passport data 
that can effectively be used during border screening. The task ahead is 
encouraging our partners to more fully utilize it, which will in turn 
only further add to its value.
                               conclusion
    DHS has instituted procedures to vet all U.S. in-bound and out-
bound international travelers against the SLTD database. Any person 
with a travel document that has been reported lost or stolen to 
INTERPOL, who attempts to board a plane to or from the United States, 
will be denied boarding until he can verify his identity.
    The ability to screen for lost or stolen travel documents, however, 
hinges upon foreign countries reporting their data to INTERPOL. This is 
why DHS has invested significantly in ensuring that all VWP countries 
report lost and stolen passports to INTERPOL, since the SLTD database 
is only as valuable as the data it contains.
    DHS's engagement strategy going forward is based on ``Three P's'': 
Populate, Process, and Promote. We will continue to ensure that all VWP 
countries populate the SLTD database effectively, and we will emphasize 
to our other foreign partners the critical importance of populating the 
SLTD database with their lost and stolen passport data. We will work 
closely with INTERPOL to ensure that effective processes exist to 
coordinate an appropriate law enforcement response when a lost or 
stolen passport is encountered. Lastly, we will work bilaterally and 
multilaterally to promote effective use of the SLTD database based on 
DHS's experiences. As the ``Three P's'' are implemented, DHS hopes to 
be even more effective in helping to secure the global aviation system, 
and U.S. citizens will have greater confidence in their safety abroad.
    Thank you for the opportunity to testify today, for your continued 
support of the Department, and for your attention to this important 
issue. We would be pleased to answer any questions at this time.

    Mrs. Miller. Thank you very much, Mr. Bersin.
    The Chairwoman now recognizes Mr. Wagner for his testimony.

     STATEMENT OF JOHN P. WAGNER, ACTING DEPUTY ASSISTANT 
 COMMISSIONER, OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Chairman Miller, Ranking Member Jackson Lee, 
and distinguished Members of the committee, thank you for the 
opportunity to appear today and discuss the role of U.S. 
Customs and Border Protection in passport security.
    I appreciate the opportunity to join my colleagues in 
speaking on this very important issue which supports the core 
mission of CBP.
    Today I would like to discuss the sources of information 
available to CBP, how we query this information, as well as our 
operational responses in the different travel environments.
    The ability for CBP officers to access real-time and 
reliable information on all travelers seeking admission to the 
United States is critical to our anti-terrorism and anti-fraud 
efforts.
    However secure modern documents may be today, CBP must 
ensure that a traveler isn't fraudulently presenting another 
individual's valid passport or other travel documentation, 
whether the document is stolen or intentionally provided, to 
enter the United States.
    CBP uses INTERPOL's Stolen and Lost Travel Document 
database, the SLTD, and Department of State's Consular Lost and 
Stolen Passport and Consular Lookout and Support Systems in the 
air, land, and sea environments to verify the validity and 
status of travel documents.
    CBP also uses the SLTD data when a citizen of a Visa Waiver 
Program country applies for a travel authorization through the 
Electronic System for Travel Authorization, also known as ESTA. 
CBP has denied over 98,000 ESTAs since 2008 for lost and stolen 
records.
    In all travel environments--air, land, and sea--CBP 
officers query travel documents against TECS, which is our 
primary database that includes access to many enforcement 
systems, including lost and stolen passport data, and against 
our automated targeting systems.
    In the air and sea environment, CBP has the extra advantage 
of receiving airline traveler information prior to departure 
from the foreign location. This enables CBP to address 
potential risk factors and admissibility issues prior to 
boarding the aircraft.
    CBP will coordinate through our National Targeting Center 
and our assets overseas in the Immigration Advisory Program or 
in preclearance or we may coordinate directly with the airline 
through our regional carrier liaison groups to prevent boarding 
in cases where the ESTA has been denied or if a traveler does 
not have a replacement document to the one reported lost or 
stolen. CBP has recommended over 650 no-board recommendations 
to carriers in the last 18 months.
    In all environments, CBP coordinates with INTERPOL when 
matches to document queries are returned from the SLTD. Many of 
the cases are actually travelers with no mollified intent. They 
are simply travelers that have reported a lost document, but 
later found it and are trying now to use it for travel.
    In this case, CBP will verify the person's identify and, if 
the passport is a U.S. passport, we will allow the traveler to 
proceed, but will seize the passport and return it to 
Department of State.
    In other cases, the traveler will have a valid replacement 
document for the lost and stolen one and CBP will verify that 
they are the true bearer and allow the traveler to proceed. 
This often occurs in the air environment when the traveler has 
not updated their airline profile with an airline and the old 
passport data has been transmitted to us.
    If the traveler is found to be presenting the lost or 
stolen passport as an imposter or has altered and tampered with 
the passport in any form, CBP will take appropriate law 
enforcement action against that traveler. In the last 18 
months, CBP has seized over 300 lost and stolen documents used 
in an attempt to enter the United States fraudulently.
    To enhance passport security operations, CBP has also 
developed the Carrier Liaison Program, which provides training 
to airlines and their security companies on identifying 
improperly documented passengers destined to the United States.
    CLP training provides airline personnel hands-on 
instruction in fraudulent document identification, passenger 
assessment, imposter identification, and traveler document 
verification. To date, the CLP has trained 33,600 airline and 
security personnel.
    When carriers encounter a lost or stolen document, CLP 
training instructs the carriers to contact CBP's regional 
carrier liaison groups that are 24/7 operations maintained at 
the airports in New York, Miami, and Honolulu.
    The RCLGs will respond in real time to carrier inquiries 
concerning the validity of the travel document presented. After 
an RCLG determination of the lost and stolen travel document 
has been made, the RCLG will make the recommendation to board 
the passenger or deny boarding.
    So in concert with our partners, CBP strives to ensure that 
travelers who present a risk are appropriately interviewed or 
vetted before boarding a flight bound for the United States and 
that any document deficiencies are addressed before traveling 
to the United States.
    CBP has placed officers in strategic airports overseas to 
work with carriers and host nation authorities and has built 
strong liaisons with airline representatives to improve our 
ability to address threats as early as possible and effectively 
expand our security efforts beyond the physical borders of the 
United States.
    These efforts seek to keep our transportation sector safe 
and prevent threats from ever reaching the United States. These 
efforts also enhance efficiency and create savings for the U.S. 
Government and the private sector by preventing inadmissible 
travelers from traveling to the United States.
    Thank you for the opportunity to testify today, and I am 
happy to answer your questions.
    Mrs. Miller. Thank you very much, Mr. Wagner.
    The Chairwoman now recognizes Ms. Sprague for her 
testimony.

STATEMENT OF BRENDA S. SPRAGUE, DEPUTY ASSISTANT SECRETARY FOR 
PASSPORT SERVICES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Sprague. Chairwoman Miller, distinguished Members of 
the committee, thank you for the opportunity to testify today 
about the many things the Department of State does to promote 
the security of the U.S. passport and deter passport fraud. I 
appreciate your focus on this important topic.
    We at the Department of State believe, to prevent passport 
fraud, you need to focus on five areas: A sophisticated 
document with technically advanced security features; a robust 
and vigorous adjudication system; real-time sharing of data; a 
proactive anti-fraud program; and outreach to U.S. citizens to 
educate them about the important form of identification.
    Because of the access the passport provides, we have spent 
years creating products with high-tech security features, 
including photo biometrics, secure laminates, microprinting, 
color-shifting ink, and enhanced electronics, that render these 
documents virtually impossible to counterfeit.
    But as the sophistication of the U.S. passport increases, 
so do the efforts of those attempting to commit passport fraud. 
Today's passport fraud most often involves fraudulent birth 
certificates, fake identities, and look-alike photos.
    Passport adjudicators spend hours annually in mandated 
training to make certain that they have the skills to identify 
various types of fraud. We also integrate several real-time 
front-end database checks into our adjudication system. But 
this is not enough.
    As recent events have shown, even a well-designed, well-
adjudicated passport is still a vulnerability in the wrong 
hands.
    Domestically, we counter this by reporting lost, stolen, 
and revoked passports to TECS, the system Custom and Border 
Protection uses to screen arriving passengers at U.S. ports of 
entry.
    In turn, CBP TECS sends us U.S. passports it seizes at U.S. 
borders so that we can identify patterns and determine whether 
the bearer submits a fraudulent passport application.
    Internationally, we lead the way in reporting lost, stolen, 
and revoked passport data to the INTERPOL Lost and Stolen 
Travel Documents.
    We provide INTERPOL with real-time data, including the 
passport number and date of issue, so it is accessible to 
member law enforcement authorities world-wide.
    We also require all countries in our Visa Waiver Program to 
report lost and stolen data to INTERPOL if they wish to 
maintain VWP status.
    The Departments of State and Homeland Security use the SLTD 
to vet visa applicants, in-bound flight and vessel manifests, 
and people crossing land borders at all U.S. ports of entry.
    If used consistently by international law and border 
enforcement agencies, the SLTD effectively prevents imposters 
from using lost and stolen passports they bought or obtained 
fraudulently for travel.
    Though I believe our documents and systems are strong, 
there is never time to rest on our laurels. The U.S. passport 
is one of the most sought-after documents in the world.
    Not only is it an international travel document, it is also 
a legal form of identification and might be used to determine 
eligibility for entitlement benefits, to apply for a driver's 
license, to confirm employment eligibility, to qualify for a 
mortgage, or to open a bank account.
    This means that we must continually assess the passport 
security features and design for potential vulnerabilities and 
incorporate new measures as technology advances.
    Through our website, travel.state.gov, and through 
community outreach by our 29 passport agencies, we remind U.S. 
citizens of the importance of safeguarding their passports and 
provide guidance for reporting to us if the documentation is 
lost or stolen.
    We continually review our methods to improve our passport 
issuance system and fraud detection capabilities and look for 
new ways to partner with other agencies, educate the public and 
strengthen existing procedures.
    We welcome opportunities to expand these efforts with 
Federal, State, local, and international agencies to protect 
our citizens and promote safe, secure, and legal travel 
throughout the world.
    Thank you again for the opportunity to appear before you 
today. I am happy to answer any questions you may have.
    [The prepared statement of Ms. Sprague follows:]
                Prepared Statement of Brenda S. Sprague
                             April 4, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, thank you for the 
opportunity to testify today about the many things the Department of 
State does to promote security through interagency cooperation, 
international data sharing, and integrity of the U.S. passport.
    First, I'd like to offer my thoughts and prayers to the family and 
loved ones of those on Malaysia Airlines Flight 370. Our heartfelt 
thanks go out to the international effort of men and women working 
around-the-clock to solve the mystery of this plane's disappearance.
    The initial investigation uncovered a troubling case of imposters 
using stolen Austrian and Italian passports to board the Malaysian 
jetliner. Although it might not be related to the plane's ultimate 
fate, this episode underscores the importance of continued and 
comprehensive data sharing among the Federal and international 
communities to prevent acts of international terrorism, illegal 
immigration, and other serious forms of international crime, as well as 
theft or misuse of passports.
    The State Department works closely with our colleagues at the 
Department of Homeland Security, the Department of Justice, and other 
agencies to ensure our documents, and reports of their 
misappropriation, are shared broadly and quickly.
    Domestically, we do this through data sharing of U.S. lost, stolen, 
and revoked passport data to TECS, a system used by the U.S. Customs 
and Border Protection to screen arriving travelers at ports of entry. 
We also send to TECS information we receive about lost and stolen 
foreign passports.
    Internationally, we have been in the forefront of a significant 
push to promote reporting of lost and stolen passport data to the 
INTERPOL Stolen and Lost Travel Document--or SLTD--database. The State 
Department provides INTERPOL with comprehensive, real-time data on 
lost, stolen, and revoked U.S. passports--including the passport number 
and date of issue--so it is accessible to member law enforcement 
authorities world-wide. Annually, about 300,000 U.S. passport books and 
20,000 passport cards are reported by U.S. citizens as lost or stolen--
resulting in more than 3.2 million reports to the SLTD database since 
we began participating in 2004. The Department chose to add revoked 
passport data to the SLTD in 2010, and since then, have reported more 
than 3,500 revoked passports.
    The Departments of State and Homeland Security use SLTD to vet visa 
applicants, in-bound flight and vessel manifests, and land border 
crossers at U.S. ports of entry. U.S. Customs and Border Protection 
officers at U.S. ports of entry send to the Department seized U.S. 
passports which we analyze to look for patterns and determine whether 
the bearer submitted a fraudulent passport application. Applications 
that exhibit evidence of fraud, complicity in alien smuggling, or other 
derogatory information are then referred to Fraud Prevention Managers 
in the domestic passport agencies and centers, and Diplomatic Security 
field offices for further investigation and possible prosecution. Where 
warranted, this information might be input into internal systems to be 
used if the bearer of the passport applies for another passport.
    On the international front, the State Department works with member 
countries of the Asia-Pacific Economic Cooperation (APEC) alliance to 
detect documents reported as lost or stolen. This program, called the 
Regional Movement Alert System--or RMAS--is geared toward preventing 
criminals from boarding flights to participating countries. We are also 
engaging Taiwan--a non-INTERPOL member--to provide direct two-way 
transmission of lost, stolen, and revoked U.S. and Taiwanese passport 
data.
    Perhaps most importantly, U.S. law requires all 37 countries 
participating in the Visa Waiver Program (VWP), as well as Taiwan, to 
report lost and stolen passport data to the United States Government 
via INTERPOL or through other means designated by the Secretary of 
Homeland Security. We believe approximately 70 percent of the SLTD's 
current data comes from VWP countries. The Department of State cannot 
compel foreign countries to check against this database; however, the 
Department does automatically screen against the SLTD database--i.e., 
electronic applications of immigrant and nonimmigrant visa applicants 
are screened against the INTERPOL database to ensure they are not using 
a passport that was reported lost or stolen.
    Despite the Department's important domestic and international 
efforts to track reports of lost, stolen, or revoked documents, 
challenges remain which must be addressed. That's why the State 
Department must have other fraud prevention tools to help us verify 
citizens' identity and entitlement to a U.S. passport.
    The U.S. passport is one of the most sought-after documents in the 
world. Although primarily used for international travel, it is also a 
legal form of identification and might be used to verify eligibility 
for Social Security, health care, or entitlement benefits. It can also 
be used to apply for a driver's license, obtain a mortgage, and verify 
employment eligibility. A passport is also one of the few photo 
identification documents available to minors and can be used in support 
of school enrollment or educational assistance. These key points, along 
with the message of keeping the passport secure, are communicated to 
the public at outreach events, through the travel.state.gov website, 
and through social media tools.
    Because of the access a passport provides, we have invested in 
high-tech security features including photo biometrics, secure 
laminates, micro-printing, color shifting security ink, and enhanced 
electronics that render these documents virtually impossible to 
counterfeit.
    As the sophistication and complexity of the U.S. passport has 
increased, so have the efforts of those attempting to commit passport 
fraud. The days of carefully peeling back the cover to replace the 
photo in a U.S. passport are long past. Today's passport fraud most 
often involves fraudulent supporting identity (``breeder'') documents: 
Fraudulent birth certificates, false identities, and look-alike photos 
(sometimes with the cooperation of the legitimate bearer), are a few of 
the methods employed by imposters and other criminals.
    To counter breeder document and identity fraud, we employ a robust 
fraud prevention strategy that includes in-depth training to our 
adjudicators, verifying information against Government and commercial 
databases, and technology, such as facial recognition. Our employees 
receive twice-monthly training to identify various types of fraud and 
highlight current trends in this type of fraud. We also integrate 
several real-time, front-end database checks into our adjudication 
system including facial recognition, Social Security, and death record 
verifications.
    During the adjudication process, we use the National Law 
Enforcement Telecommunications System network to verify drivers' 
licenses. We run checks against files from the FBI to identify people 
on probation, parole, or pre-trial release who might be trying to 
obtain a U.S. passport to flee the country. Additionally, we use the 
services of several commercial data providers which allow our employees 
to verify an applicant's social footprint and detect fraudulent 
addresses, phone numbers, and other discrepancies in their application 
information.
    Though I believe our systems and processes are strong, none is ever 
invulnerable. That's why we continually review our methods to improve 
issuance and fraud detection and look for new ways to strengthen 
existing procedures.
    In this vein, we are currently developing a system that will allow 
citizens to report lost and stolen passport books and passport cards 
on-line immediately, thereby speeding the information-sharing process. 
We chair an interagency working group that meets weekly developing a 
next generation passport product that might include--among other 
advanced features--laser-perforated pages to prevent page 
substitutions.
    The Department engages actively with State vital records bureaus to 
encourage contributions to a National centralized database of birth and 
death records provided by The National Association for Public Health 
Statistics and Information Systems. We are implementing a Memorandum of 
Understanding with the Federal Bureau of Prisons, and engaging State 
corrections agencies to share parole and pre-trial data.
    To protect our citizens and promote safe, secure, and legal travel 
throughout the world, we welcome opportunities to continue to expand 
these efforts with Federal, State, local, and international agencies.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions you might have.

    Mrs. Miller. Thank you very much, Ms. Sprague.
    The Chairwoman now recognizes Mr. Bray for his testimony.

STATEMENT OF SHAWN A. BRAY, DIRECTOR, INTERPOL WASHINGTON, U.S. 
      NATIONAL CENTRAL BUREAU, U.S. DEPARTMENT OF JUSTICE

    Mr. Bray. Thank you, Chairwoman Miller, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee.
    It is an honor to be here today to provide you with an 
interview of INTERPOL's Stolen and Lost Travel Documents 
database, or SLTD, and how INTERPOL Washington and our partner 
agencies utilize this global resource to combat transnational 
crime and terrorism.
    Before I get started, I would like to echo the previous 
statements of the panel regarding the tragic disappearance of 
Malaysia Airlines Flight 370. At INTERPOL Washington, our 
thoughts and prayers remain with the families and loved ones of 
the flight's passengers and crew. This incident certainly 
serves to underscore the need for coordination and 
collaboration across international borders to create a safer, 
more secure world for us all.
    As you are aware, the International Criminal Police 
Organization, commonly known as INTERPOL, is the largest police 
organization in the world. Its membership is comprised of the 
national police authorities from 190 member countries, all of 
which participate in the organization on a voluntary basis.
    INTERPOL exists to ensure and promote the widest possible 
mutual assistance between these police authorities. In order to 
achieve this high level of cooperation, each INTERPOL member 
country is required to establish and maintain a National 
Central Bureau.
    INTERPOL Washington is that National Central Bureau for the 
United States. A component of the Department of Justice, we are 
unique in that we are also co-managed by the Department of 
Homeland Security.
    In our 46th year of operation, INTERPOL Washington is 
supported by a multi-sector workforce consisting of a full-time 
staff from the Department of Justice and additional senior 
personnel representing more than 30 U.S. law enforcement 
agencies.
    Simply stated, our mission is to facilitate international 
police cooperation, communication, and investigations through 
INTERPOL on behalf of the United States.
    We support and heavily utilize INTERPOL's databases and 
resources, its secure global police communications system, the 
I-24/7, in order to accomplish this mission.
    It is the I-24/7 that connects the U.S. directly with 
INTERPOL, its resources, but, also, directly with our 189 other 
country member partners.
    The use of its databases and I-24/7 are governed by 
INTERPOL's rules on the processing of data. It is these rules 
that allow INTERPOL Washington to extend the services and data, 
including the SLTD to U.S. law enforcement.
    In accordance with our internal information-sharing 
strategy, INTERPOL Washington has now extended the ability to 
query SLTD to all Federal, State, local, and Tribal authorities 
through existing U.S. law enforcement data systems.
    The SLTD itself is essentially a searchable repository of 
stolen and lost passport visa and identity document information 
designed to help prevent illicit international travel and false 
impersonation by criminals and terrorists.
    A query against the SLTD database in which there is a match 
will result in the return of only information about the suspect 
document itself, but will not include personally identifiable 
information about the document holder.
    Although strongly encouraged by INTERPOL, participation in 
SLTD is voluntary and does vary country by country. The United 
States has embraced SLTD in its efforts as a critical component 
of its border security and transportation strategies.
    In the United States, the Bureau of Consular Affairs at the 
Department of State is our designated partner and source for 
the stolen and lost passport data that is populated into the 
Stolen and Lost Travel Documents database.
    Currently, the United States maintains over 3 million of 
the more than 40 million records contained in the SLTD. U.S. 
participation in SLTD is managed at INTERPOL Washington by our 
operations and command center.
    Working on a 24-by-7 basis, we coordinate the entry of that 
U.S. passport data into the SLTD and, also, verify and resolve 
any matches against the database by either foreign or domestic 
authorities.
    In 2013, U.S. law enforcement, border security and consular 
authorities queried the SLTD more than 238 million times, 
accounting for approximately 30 percent of all query activity 
world-wide.
    These queries resulted in more than 25,000 matches against 
the database, the overwhelming majority of which were resolved 
administratively.
    A small number of these hits, however, represented a 
serious potentially criminal concern and were immediately 
referred to appropriate law enforcement authorities for further 
investigation.
    As you can see, INTERPOL Washington has aggressively 
pursued the use of SLTD to enhance and support our National 
security and investigations.
    We will also continue to explore additional applications 
for SLTD to further assist our law enforcement community and 
ensure the safety of the American people.
    Chairwoman Miller, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee, I sincerely 
appreciate the opportunity to testify about our role in this 
important program, and I would be pleased to answer any 
questions you have at this time.
    [The prepared statement of Mr. Bray follows:]
                  Prepared Statement of Shawn A. Bray
                             April 4, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, it is an honor to be here today to provide 
you with an overview of the INTERPOL Stolen/Lost Travel Document 
Database, or SLTD, and how INTERPOL Washington, the United States 
National Central Bureau, and its partner agencies utilize this 
international resource to combat transnational crime and terrorism.
                               background
INTERPOL
     The International Criminal Police Organization--INTERPOL--is the 
largest international police organization in the world. Its membership 
is comprised of the respective national police authorities of its 190 
member countries, which participate on a voluntary basis.
    INTERPOL is a world-renowned brand in the international law 
enforcement community, but one that is often misunderstood by the 
public at large. Simply put, INTERPOL exists to ensure and promote the 
widest possible mutual assistance between the criminal police 
authorities of its member countries, and it seeks to `` . . . establish 
and develop all institutions likely to contribute effectively to the 
prevention and suppression of ordinary law crimes.''\1\ INTERPOL is 
both mindful of the differing national laws of its member countries and 
active in its protection of human rights.
---------------------------------------------------------------------------
    \1\ Article 2, Constitution of the International Criminal Police 
Organization--INTERPOL.
---------------------------------------------------------------------------
INTERPOL National Central Bureaus
     Under INTERPOL's constitution, each member country is required to 
establish and maintain a ``National Central Bureau'', or NCB, 
responsible for ensuring the ``constant and active cooperation'' of the 
particular country.\2\ An NCB serves as a critical link between the 
national law enforcement authorities of an INTERPOL member country, its 
foreign counterparts, and the INTERPOL General Secretariat.\3\ Except 
for certain general guidelines and conditions of membership in 
INTERPOL, the structure, placement, and operation of an NCB is entirely 
within the control and discretion of the respective member country.
---------------------------------------------------------------------------
    \2\ Ibid, Article 31.
    \3\ Ibid, Article 32.
---------------------------------------------------------------------------
INTERPOL Washington--The United States National Central Bureau
    Located in Washington, DC, INTERPOL Washington is the United 
States' National Central Bureau (USNCB). Our agency is unique in that 
it is a component of the U.S. Department of Justice and co-managed with 
the Department of Homeland Security under a Memorandum of 
Understanding.\4\ INTERPOL Washington's mission is well-defined by 
statute and regulation and includes facilitating international police 
cooperation; transmitting information of a criminal justice, 
humanitarian, and other law enforcement related nature, and 
coordinating and integrating information in international criminal 
investigations.\5\ Staffed entirely by U.S. law enforcement agents, 
officers, and analysts, INTERPOL Washington provides the means for over 
18,000 Federal, State, local, and Tribal law enforcement agencies in 
the United States to communicate and collaborate with police globally. 
Just to clarify any potential ambiguity, let me underscore that the 
USNCB is not a part of the INTERPOL organization. It is a U.S. 
Government agency that serves as the U.S. link to INTERPOL.
---------------------------------------------------------------------------
    \4\ Memorandum of Understanding Between the U.S. Department of 
Homeland Security and the U.S. Department of Justice Pertaining to U.S. 
Membership in the International Criminal Police Organization 
(INTERPOL), Management of the INTERPOL-U.S. National Central Bureau, 
and Related Matters.
    \5\ 22 U.S.C. 263a; Title 28 CFR Subpart F-2  0.34.
---------------------------------------------------------------------------
Sharing INTERPOL Information
    Fundamental to INTERPOL are its core functions to provide its 
member countries with secure global police communication services and 
access to its operational data services and databases. This is achieved 
through an encrypted, virtual private network known as the ``I-24/7'' 
secure communications system. INTERPOL ensures the quality of its data 
and the efficiency with which it is processed by adhering to a 
transparent set of operating guidelines known as INTERPOL's Rules on 
the Processing of Data, or RPD.
     Under the RPD, NCBs may directly access INTERPOL's Information 
System. This access permits an NCB to manage its data contained in the 
system; query INTERPOL's databases; transmit messages; obtain and use 
INTERPOL Notices, and follow up on positive database query results. The 
RPD also allows NCBs to extend system access to their respective 
national authorities. In the United States, INTERPOL Washington extends 
query access to INTERPOL's investigative databases, which includes the 
Stolen/Lost Travel Documents Database, or SLTD, to all U.S. law 
enforcement, border protection, and consular authorities in support of 
their official duties.
The Stolen/Lost Travel Document Database (SLTD)
    Terrorist attacks over the last few decades gave rise to the 
realization that many of the perpetrators were known suspects who had 
been traveling internationally while concealing their identity through 
the use of false passports. To address this threat, INTERPOL conceived 
the idea of creating a technology that would allow the real-time 
verification of travel documents that had been reported lost, stolen, 
or revoked by their respective national issuing authorities.
    Developed in 2000 as a database of blank passports that had been 
reported stolen, SLTD rapidly expanded to include travel documents 
reported as stolen from, or lost by, the bearer. Becoming fully 
operational in July 2002, SLTD has grown from housing less than 300,000 
records to more than 40,000,000 records in 2014, searchable in real 
time via fixed or mobile network database solutions. Using either 
solution, query results are available to authorized law enforcement and 
border security users in mere seconds.
    The SLTD is one of the largest INTERPOL databases and it is 
considered among the world's primary tools for detecting stolen and 
lost travel documents in order to prevent illicit international travel 
and false personation by criminals and terrorists. Specifically, SLTD 
is a searchable repository of non-personal information drawn from 
passports, visas, and identity documents that have been reported stolen 
or lost by issuing authorities of INTERPOL member countries. It also 
includes information about stolen passport blanks and travel documents 
that have been revoked by an issuing national authority.
    SLTD-authorized users are able to query specific passport numbers 
against the database in support of investigative or border security 
functions. A positive ``hit'' against the database will return data 
elements about a suspect document that include the issuing country, 
document type, date of the theft or loss, and a limited amount of 
information related to the circumstances of the theft or loss, as 
provided by the INTERPOL reporting country. SLTD data does not include 
Personally Identifiable Information about passport holders, as defined 
under U.S. law, nor does the database provide access to information 
about all U.S. passports--only those that have been reported as stolen, 
lost, or revoked by issuing national authorities.
    Only a member country's passport issuing authority, in coordination 
with its corresponding NCB, is authorized to enter and modify records 
in SLTD pertaining to the theft, loss, or revocation of its national 
travel documents. In the United States, the Department of State's 
Bureau of Consular Affairs is the designated source for lost, stolen, 
or revoked U.S. passport data submitted to SLTD through INTERPOL 
Washington. Currently, more than 3 million of the more than 40 million 
records contained in SLTD pertain to U.S. passports.
    Although strongly encouraged by INTERPOL, participation in SLTD is 
voluntary on the part of INTERPOL member countries. While levels of 
participation vary on a country-by-country basis, the United States has 
embraced SLTD as a critical part of its strategy to combat illicit 
international travel and enhanced border security.
United States Utilization of SLTD
    United States participation in SLTD is managed through our 
Operations and Command Center. Working 24/7/365, INTERPOL Washington 
partners with U.S. Customs and Border Protection (CBP) and the 
Department of State to make SLTD available for vetting against all in-
bound and out-bound international travelers and visa applicants. With 
respect to international air travel, CBP receives Advance Passenger 
Information System (APIS) data from the carriers for those travelers 
in-bound to and out-bound from the United States. CBP queries the 
foreign travel document data it receives via APIS data against SLTD for 
any matches to the listed travel documents. As an additional security 
measure, INTERPOL Washington also makes available all INTERPOL Notices 
and lookouts for fugitives, persons of interest, missing persons, and 
career criminals to CBP and all U.S. law enforcement via DHS's TECS and 
the National Crime Information Center database administered by the FBI.
    In the event of a hit, our command center staff immediately seeks 
to verify and resolve all matches against SLTD on foreign travel 
documents with our foreign partners. Conversely, command center staff 
also coordinates with our international counterparts to resolve cases 
involving matches on U.S. passports presented at foreign border control 
points and to coordinate the appropriate administrative or law 
enforcement action.
    In 2013, U.S. law enforcement, border security, and consular 
authorities queried SLTD more than 238 million times through INTERPOL 
Washington, which accounted for approximately 30 percent of all queries 
conducted by authorities world-wide. Of the more than 25,000 hits 
against the database that occurred during that time, the overwhelming 
majority were resolved administratively. A small number of these hits, 
however, represented a serious, potentially criminal concern, and were 
referred to the appropriate law enforcement authority for further 
investigation and resolution.
    For example, INTERPOL Madrid coordinated with INTERPOL Washington 
last year to prevent an imposter, a Gambian national using stolen or 
lost U.S. passport, from traveling to New York. Investigation revealed 
the passport had been issued less than 30 days earlier. The subject was 
denied entry to the United States and the passport was recovered by 
Spanish authorities for return to U.S. authorities. The matter was 
referred to Spanish authorities for further investigation.
    In another example, INTERPOL Sofia intercepted an Iranian national, 
who was traveling on a stolen or lost U.S. passport and posing as a 
U.S. citizen. INTERPOL Washington coordinated with U.S. and Bulgarian 
authorities to determine the subject's true identity, which resulted in 
his arrest and the recovery of the passport.
    In addition to the large-scale, systematic screening of 
international travelers, SLTD may also be queried in support of an 
investigation or other official matter. Building upon our Law 
Enforcement Information Sharing Strategy, we have now extended the 
ability to query SLTD to all local, State, Federal, and Tribal law 
enforcement agencies through nationally-available systems such as Nlets 
and N-DEx, the FBI's National Data Exchange.
Continuing Challenges
    Notwithstanding the considerable progress that has been achieved 
since SLTD was first introduced, significant challenges remain in 
realizing its full potential. Of the INTERPOL member countries that 
participate in SLTD, many do not routinely contribute data on lost/
stolen documents and fewer still regularly screen travel documents 
against the database. This participation varies on a country-by-country 
basis as a consequence of such factors as national policy, lack of 
connection or cooperation between law enforcement, issuing, and border 
control authorities, and capacity, i.e. cost of deployment and existing 
IT infrastructure.
The Way Forward
    Just as the use of SLTD continues to grow, so too does INTERPOL's 
vision for detecting and deterring the illicit international travel of 
criminals and terrorists. Building upon I-24/7, its proven and highly 
adaptable global police communications network, INTERPOL is today 
implementing additional tools and services to assist law enforcement. 
Recently made operational, INTERPOL's TDAWN--Travel Documents 
Associated With Notices--enables law enforcement officers to identify 
wanted criminals that are subject to INTERPOL Notices when checking 
associated travel documents.
    TDAWN, as well as other operational and forensic databases that now 
form the ``INTERPOL Travel ID and Document Center'', hold promise to 
further enhance efforts to combat the illicit international travel that 
threatens our public safety, transportation, commerce, and national 
security. And, just as INTERPOL Washington has aggressively exploited 
the use of SLTD, we will continue to explore the potential applications 
of these new and promising capabilities.
    Chairman Miller, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee; I sincerely appreciate the opportunity to testify 
about this important program and our role in it. I would be happy to 
answer any questions you may have.

    Mrs. Miller. Thank you very much.
    I certainly appreciate all of the witnesses. You have been 
very, very informative on this, I think, very interesting issue 
and something that I think the United States Congress needs to 
be looking at a bit more.
    Because, really, the purpose of this hearing--first of all, 
we have a great story to tell, as has been mentioned here this 
morning.
    The United States has a great story to tell about how 
significantly we have ratcheted up our security--our document 
security, et cetera, for our American citizens, particularly 
flying domestically here since 9/11. It really is a remarkable 
achievement by our Nation, I think.
    So I want to make sure that our United States citizens do 
recognize and have a high degree of confidence and comfort 
level in the fact of what is happening with our various 
Government agencies when our citizens are traveling 
domestically here.
    But as we are very aware now--and I think the American 
citizens are much more aware because of the tragedy of 
Malaysian Flight 370--that, if you are an American citizen and 
you are traveling internationally, particularly from one 
international country to another, they don't have the same type 
of security with their data documentation that we do.
    I suppose we know that, but, yet, we need to look at what 
types of things we could do, perhaps, to incentivize others to 
improve a bit, particularly when we see in the Malaysia Flight 
370 there were American citizens traveling on that aircraft.
    So, since that has happened, as the world continues to 
search for that flight, we decided to have this hearing this 
morning really to look into this issue a bit and explore what 
types of options we might have.
    Certainly one that comes to mind immediately--and it has 
been mentioned here, of course, extensively in the testimony 
today and in our opening comments, both myself and my Ranking 
Member.
    I mean, we have 38 countries--we have a list of the 38 
countries that do--these are our friends. These are our allies, 
these nations--that are under the visa-free travel, the VWP 
program.
    This is a program the United States started back in the 
1980s, really, as a way to expedite travel from our allied 
countries into the United States for tourism, for commerce, et 
cetera.
    Since 9/11, we have had great success with them certainly 
checking--or giving us information if there are lost or stolen 
passports. So that is all good.
    However, it is interesting--and it really has come to 
light, I think, because of the Malaysia flight--that these same 
countries are not really checking as they could for the 
potential of stolen or lost passports on their database when 
people are getting on their flights.
    So, again, these are other nations. I think the United 
States--obviously, they are our friends. They are our allies, 
et cetera. But we do have this particular program with them.
    I am just wondering--as I mentioned in my opening 
statement, it is my intention--we are looking at introducing 
legislation that would require them, as a participant in this 
program, to really not only just regularly submit information 
on lost and stolen passports, but, really, for these countries 
also to routinely check the database for passengers who are 
boarding these flights.
    I mean, you look at the list of the countries here. As I 
say, these are our friends and allies--our closest allies in 
the world, really. I mean, you look at France and Germany, 
Greece, Ireland, Italy, et cetera, and this information is 
available.
    Really, in some ways, it would seem to me that many of 
these countries don't need to be incentivized by the United 
States. Perhaps they will start doing it on their own after 
what has come to light with the Malaysia flight.
    But I guess I would throw that question out. Maybe start 
with Mr. Bersin.
    What is your thought about actually legislation about 
something like that? What do you think would be the reaction of 
our allied countries for something like that? Would they 
consider it an intrusion? What would your thought be on 
something like that?
    Mr. Bersin. Madam Chairwoman, so, of course, you recognize 
that, pending the submission of legislation, this is a--in 
which the department would have a formal review process----
    Mrs. Miller. Right.
    Mr. Bersin [continuing]. This is a good-faith response to 
your inquiry based----
    Mrs. Miller. I appreciate that. Yes. There has not been 
legislation introduced. But, as I say, it is my intent to do 
so.
    Mr. Bersin. So looking at the way in which visa waiver 
countries operate now, we do require them to populate the 
database so that every time someone comes on the way to the 
United States we can query that database maintained by 
INTERPOL, operated, as Ms. Sprague indicated, by the NCB and 
find lost and stolen documents. The number is great because of 
the requirement.
    Also, when you get on a foreign airline and they come to--
someone is coming on a foreign airline from those countries, we 
get the same benefit because the advanced passenger information 
requirement pertains to any flight from any country, whether 
visa waiver or else, coming toward the United States.
    The question you raised, which is whether, as a condition 
of participating in the Visa Waiver Program, they ought to be 
compelled to screen against the database with regard to all 
flights, regardless of whether they are coming toward us or 
going elsewhere, poses an interesting policy question.
    It does address the issue that we see highlighted by 
Malaysia Airline Flight 370 and the two Iranians using the lost 
or stolen passport issued in Italy and Austria. It is a 
legitimate issue.
    I believe, though, that we are going to have to assess 
whether, of all the things that we would require that do not 
have a direct impact on us--whether that would be one of them I 
think is an open question, speaking frankly. It is an important 
question, but I don't think that the answer is a 
straightforward ``yes.''
    Thank you.
    Mrs. Miller. I appreciate that.
    Anyone else have a comment on that?
    Mr. Wagner.
    Mr. Wagner. We do encourage many nations to develop their 
own advanced passenger information systems, and we work with 
them to help them do that. You know, we try to put some 
consistency in the format and the data elements so the airlines 
don't have many different systems to provide to many different 
countries.
    But it starts with collecting passenger manifest 
information at an appropriate time in the airline process so a 
government can take a response and, you know, a lot of 
countries don't have the capacity to even do that. Some of them 
do in varying degrees.
    Then the ability to run that set of data against the 
different databases that are there, you know, for that 
government to access and--you know, it really becomes a 
technology and a resource issue for a lot of the governments to 
do.
    In the cases where we have had some of our close partners 
develop these type systems, we have also brokered some 
arrangements to help them target that information and help them 
review it and exchange information in that, and we have located 
some of our personnel on the ground to work with their 
authorities to help them adjudicate a lot of those passenger 
manifests. We have officers in Panama. We have officers in 
Mexico. It is an extension of our Immigration Advisory Program.
    But we can work with travelers traveling--we can work with 
those governments to identify travelers traveling into those 
countries to help them to identify that.
    We have had some success with the use of lost and stolen 
documents entering Panama and entering Mexico to be able to do 
that. So we will continue to push certain countries to expand 
on those agreements and, really, on those capabilities.
    Mrs. Miller. Following up, Mr. Wagner, because it was in 
your testimony, I think--or one of you--that testified that CBP 
was going to be--it just started a screening for lost and 
stolen passports on the out-bound flights, and I know you have 
been doing that on the in-bound flights.
    Could you explain to the subcommittee here exactly what we 
have been doing in the past and what we are doing now and why 
we are doing that and how it advantages us from a security risk 
standpoint?
    Mr. Wagner. Yes. We do get 100 percent of the commercial 
air and sea passengers departing the United States, their 
manifests in advance of departure.
    Historically, we have screened them for some of our top 
threats that we face, terrorist screening, database hits, no-
fly hits, some of our targeting and analysis hits. We have 
recently added the lost and stolen database query to those 
manifests and the screening of those manifests.
    We are looking now--I want to say we get about 60 to 80 
hits a day total. We are looking to program our systems to be 
able to see if we can administratively reconcile some of those 
hits so we are not chasing down, you know, some administrative-
type action.
    So in cases where a person hasn't updated their airline 
profile and the airline has transmitted the old data to us or 
the person has entered on a different document and we have 
allowed that and we can see that, we can reconcile that because 
they had a replacement document legitimately.
    As we have seen on the in-bound, the majority of our hits 
are reconciled in an administrative manner because the person 
has a replacement document or they have lost and found their 
document then.
    So we are seeing ways we can program our system to help us 
better pinpoint the ones that truly have some mollified intent 
and depart the United States on a true lost and stolen 
document.
    Then we are working with TSA, also, to see if there is a 
way we can build in working with the airlines to put some 
indicators and potentially even prohibiting printing the 
boarding pass when we do get these hits to give us time to 
reconcile this information and respond.
    We do rely a lot on the work the airlines and TSA already 
does to check the photo documentation of the traveler and 
ensure that traveler is properly credentialed and the work they 
do through the screening activities before that person does 
board as well, too. So we leverage a lot of those actions as 
well.
    Mrs. Miller. I appreciate that.
    Even though we are talking about visa security and passport 
security, I think INTERPOL is such an interesting organization 
and has done just such remarkable work over the years.
    You mentioned all the member countries, Mr. Bray, and the 
kind of information sharing you have. But let me just ask you: 
For instance, if you had--if somebody in Germany who was a sex 
offender in Germany got on an aircraft and was flying into the 
United States, would they be sharing that kind of information 
through INTERPOL with us?
    I am not just talking about terrorism, but other kinds of 
threats to security here in the United States. Is that--just so 
I understand, sir, how the information sharing works through 
the organization.
    Mr. Bray. Yes, Madam Chairwoman. That type of information 
can be received, maybe--from Germany, from other countries. We 
routinely receive information regarding traveling sex 
offenders--generally, registered sex offenders in many of the 
countries that have a registry for that, but certainly from 
countries that may be just simply notifying us that a sex 
offender from their country is traveling.
    We communicate that information immediately to our border 
control authorities, to CBP, so a determination can be made as 
to admissibility in the United States. But that is one story.
    I mean, there is information regarding criminals, 
terrorists, modus operandi that are transmitted on a daily 
basis. The command center at INTERPOL Washington, as I said, is 
24/7/365.
    This past month they processed over 30,000 messages to and 
from the international law enforcement community. This is the 
work that we do every day. The SLTD has been just, honestly, a 
very key component of our work that we do and that we continue 
to do to enhance U.S. security.
    INTERPOL Washington, as we spoke about, is a Department of 
Justice concern. There are no foreign law enforcement officers 
there.
    It is strictly U.S. law enforcement, and it is us using 
INTERPOL and its tools to help overcome linguistic, legal, and 
sometimes geographic and cultural barriers that inhibit U.S. 
law enforcement cooperation with other foreign countries.
    It has been, as you said, a great success story and it is 
one that I think we will be able to build upon soundly in the 
future.
    Mrs. Miller. Yes, Mr. Bersin.
    Mr. Bersin. The clarification--and I asked--Mr. Bray 
indicated that we can receive information on foreign criminal 
records and, in fact, the NCB is the vehicle through which 190 
countries can communicate.
    There are sex offender--registered sex offenders, but 
routinely that information actually would not come unless there 
is a specific case or a specific law enforcement inquiry.
    Because, in fact, when a German gets on an airplane to the 
United States, CBP knows that he is coming, but the German 
authorities don't know that he is coming.
    Unless that German sex offender or murderer--unless that 
record is in the FBI database, we have no routine insight into 
what is in the criminal data records of other countries.
    That is the issue that--Mr. Bray is entirely right, that, 
if there is a specific case or a specific inquiry, NCB would 
receive that information.
    But the point is, it is not a routine data exchange because 
we don't have routine access to German criminal records any 
more than they have routine access, unless there is a case, to 
our criminal records.
    Mrs. Miller. You know, one other question.
    This subcommittee and our full committee is interested in 
pursuing some legislation in regards to biometrics for visas, 
et cetera, and certainly that is the only surefire way of 
verifying somebody's identity, I suppose, particularly for--in 
this case, we are only talking about foreign travelers into the 
United States.
    Does anyone have any thoughts--again, I know we are talking 
about passport security, but visa security as well--in regards 
to how biometrics are an important tool for something like 
that?
    Perhaps even, Ms. Sprague, from the Department of State, do 
you have any comment on that?
    Ms. Sprague. I would never pretend to be an expert on 
visas. But, as you know, all visa applicants do provide 10 
fingerprints, and, of course, those can be verified by CBP at 
entry. So probably the most reliable biometric generally 
accepted is fingerprints, and they are already collected.
    Mrs. Miller. Anyone else have any comment on the 
biometrics?
    Mr. Bersin. Part of the Visa Waiver Program, Madam 
Chairwoman--one of the requirements Congress imposed was that 
we enter into something called the Preventing and Combating 
Serious Crime, the PCSC, agreement. There is also a national 
security agreement that is required that would facilitate the 
exchange of information.
    We do have--with each of the 38 countries, we do have a 
PCSC agreement, and, in fact, with some countries that are not 
VWP members, we have those agreements. But we are just at the 
very dawn of creating a mechanism to exchange.
    But one of the exchanges that is provided is biometric. We 
can query each other's fingerprint databases and then, if there 
is a red light or an alert, we can then follow up in the way 
that Ms. Sprague suggested, by having the NCB or attaches 
abroad say--call the police authority and say, ``What is that 
red hit about?'' and then we get the information. But we are 
just at the dawn of that development.
    Mrs. Miller. Well, thank you very much.
    Certainly information is power. Right? Information and the 
sharing of information is such a critical component of our 
security here. So we appreciate that.
    With that, the Chairwoman recognizes the Ranking Member.
    Ms. Jackson Lee. Let me thank the Chairwoman and the 
witnesses again.
    In my opening statement, I mentioned two individuals, and I 
am going to mention them again because, in the present 
circumstances of the Malaysian Flight 370, the investigation 
initially has not pointed to the two individuals as having 
criminal intent or any intent to bring the plane down.
    The initial facts--or at least what is attributed to these 
two individuals with false passports is a benign, but certainly 
important, issue of asylum and their desperation and 
frustration, and they might even draw empathy or sympathy.
    I don't want that initial determination to cloud how 
serious this hearing is and how crucial it is that we have a 
construct that will let the world know and all the entities 
involved that this is a very serious issue.
    I remind the witnesses, who I know already know, that Ramzi 
Yousef, who, in actuality, was convicted of masterminding--not 
just being a traveling soldier or standing by the wayside, but 
masterminding the 1993 World Trade Center bombing--and many who 
are in this business have been told and have made note of the 
fact that that was something that did not wake America up.
    It was so unusual that we did not attribute it to a 
beginning change in the psyche of those who want to do America 
harm. But he was traveling internationally on a stolen 
passport.
    The ``White Widow,'' who is now wanted in Kenya, again, is 
linked to a fraudulent passport and a passport reported stolen. 
We don't know how many others.
    So I think this hearing is crucial because we must leave 
here with the idea that solutions are possible.
    I would like to, Mr. Bersin, put on the record that 
INTERPOL has taken note that travelers have boarded flights 
more than 1 billion times without having their passports 
checked against INTERPOL's stolen and lost travel documents. I 
think that is very much a wake-up call.
    So I would ask you: What impediments do you think with 
respect to technology, infrastructure, privacy concerns are 
blocking or keeping countries from using the SLTD? What is your 
view of how the United States might be able to be helpful to 
these countries?
    Mr. Bersin. Thank you, Ranking Member.
    You are correct with regard to the INTERPOL observation on 
the 1 billion----
    Ms. Jackson Lee. That is a large number.
    Mr. Bersin. A very large number, ma'am.
    In your question, you indicate some of the difficulties 
that countries have. These include not only resource restraints 
in terms of lacking the money, in terms of priority of a budget 
decision, it also involves the lack of technological know-how 
and the ability to set up the kinds of sophisticated 
information technology systems that are required to create this 
kind of automated checking.
    It also involves, as you indicate, the invisible 
requirements or constraints of privacy views and the lack of 
coordination between immigration authorities and police 
authorities at the local or provincial levels in foreign 
countries. All of those together create an institutional 
incapacity to operate the kinds of automated vetting systems 
that we have.
    Having said that, as Mr. Wagner indicates, we have to have 
a strategy with regard to those countries that are critical to 
our security to ensure that they at the very least populate the 
Stolen and Lost Travel Document database. The most important 
requirement for us in the near term is that we actually have 
the data that we can vet to be able to see who may be traveling 
toward the United States.
    The second requirement is to figure out, again, based on 
flows of passengers, what strategic capacity-building efforts 
we ought to engage in to help countries build up the kinds of 
technological, legal, and human capital requirements to build 
up these systems.
    While we do that to some extent, we don't, for example, at 
the Department of Homeland Security have capacity-building 
funding, security sector assistance funding, in which to do 
that.
    So when we go out to do that, absent a grant from the State 
Department or the Defense Department, we actually have to do 
that so-called out-of-hide, which we regularly do. But that----
    Ms. Jackson Lee. Excuse me.
    But you have no budget line item that would allow you to 
dip into those funds and be engaged in that kind of capacity 
building?
    Mr. Bersin. That is correct, Ranking Member.
    Ms. Jackson Lee. So when the Secretary, Napolitano, 
remember, went to visit with countries dealing with TSA's 
responsibilities in country, meaning in foreign countries, what 
outreach was that?
    Mr. Bersin. So with regard to TSA, TSA, because of the 
responsibilities for cargo screening and airport security, has 
a limited separate line budget with regard to providing 
technical assistance on airport security. No other component to 
my knowledge in DHS, has a separate line item that would permit 
the kind of capacity building that we have talked about here 
this morning.
    Ms. Jackson Lee. Well, you have raised an important issue. 
Let me quickly pursue this very briefly, Mr. Bersin.
    In your testimony, you state that despite the fact the 
United States has worked to incorporate recommendations for 
data reporting and response time in Interpol's approved 
standard SLTD standard operating procedure, INTERPOL does not 
require its member countries to implement them.
    Do you have any recommendations on this and any fixes on 
this?
    Mr. Bersin. With regard to--as I said in response to the 
Chairwoman's question at the outset, Ranking Member, requiring 
other countries to screen the database is an open issue, in my 
mind, one that we need to debate, but populating the database 
has a direct and immediate impact on our security, so that if 
we go down that route, both in terms of mandates or capacity-
building efforts, I would focus on getting data into the 
database that we could then screen as the top priority.
    Whether and how we can cooperate with INTERPOL and other 
international organizations, such as ICAO, the International 
Civil Aviation Organization, is also one that we need to 
explore as we move forward.
    Ms. Jackson Lee. Let me quickly raise a question with Mr. 
Wagner and conclude with a comment. Mr. Wagner--thank you very 
much, Mr. Bersin.
    Mr. Wagner, CBP, has long screened arriving passengers. You 
have not screened departing passengers. I think you started 
doing it after Malaysia 370.
    Two questions as to why, and then Mr. Bersin said that he 
doesn't believe any other agency within DHS has capacity 
building; does your agency have that funding? I just need a yes 
or no on that, and then with this passport enhancing our 
ability to deal with fraudulent passports also help you in the 
human trafficking and human smuggling and human slavery issue, 
because I would imagine that that is also a possibility for 
individuals being smuggled, they may be on a fraudulent 
passport as well.
    But the question is, you have just started doing the 
exiting passengers, will you continue to do it; why haven't you 
done it? Then what about the impact at getting our hands around 
stolen passports, impact on human smuggling?
    Mr. Wagner. Well, yes, we have recently added the lost and 
stolen documents to the outbound manifest screening that we do. 
We will focus primarily on before on, you know, terrorist 
screening database hits and other types of national security 
hits, but we have added those, and now we are working through 
to try to refine our targeting systems to help out, really to 
cull out some of the administrative hits that we do get----
    Ms. Jackson Lee. So will you continue?
    Mr. Wagner. Absolutely. We will be working with TSA to try 
to come up with a better process in that.
    Ms. Jackson Lee. Does this help you, do you believe, with 
issues dealing with human smuggling, human trafficking?
    Mr. Wagner. Absolutely.
    Ms. Jackson Lee. Or would it help?
    Mr. Wagner. Absolutely. Ensuring people are properly 
credentialed and we know who they are is a key piece of that.
    As far as your capacity-building answer, I don't believe we 
have a specific line item for it, but we do put a lot of 
resources into doing that around the world or working with 
Department of State to be able to fund those activities.
    Like I mentioned just before, that helping these 
governments build these types of advanced passenger information 
systems, to get the manifest, to get the P&R, to do the 
targeting and the analysis like we do, and then eventually 
helping exchange that information is really critical to a lot 
of our priorities.
    Ms. Jackson Lee. Let me just thank the Chairwoman and just 
say that I have questions for Ms. Sprague that I will put in 
the record and ask for a response for the entire committee.
    Mr. Bray, I will be asking you about how you discern these 
resolving of possible hit, what do you do if a possible hit is 
discerned?
    Mrs. Miller. We will make sure the----
    Ms. Jackson Lee. We will look forward to it.
    Mrs. Miller [continuing]. Witnesses have that and----
    Ms. Jackson Lee. Thank you.
    I yield back.
    Mrs. Miller [continuing]. For the committee. Thank you.
    Thank the gentlelady.
    Mrs. Miller. Now the Chairwoman recognizes the gentleman 
from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chairwoman.
    In an effort to share information related to lost and 
stolen passports as a criteria for participation in the visa 
waiver program, countries wishing to participate must sign 
agreements with the United States regarding the sharing of lost 
or stolen passports with DHS and INTERPOL. Through 
participation in the visa waiver program, 38 nations have 
agreed to share lost or stolen passport information.
    Dr. Bersin, do all the visa waiver program countries 
routinely share information on lost or stolen passports with 
DHS and INTERPOL?
    Mr. Bersin. Yes, they do, Congressman Palazzo, and there is 
regular checking that we do to see that that requirement is 
met. Periodically there will be a review of how many entries 
have been made by visa waiver countries, and if a problem 
arises, we work to remedy that with a country, yes, sir.
    Mr. Palazzo. Are there any countries that are in non-
compliance?
    Mr. Bersin. At this time, no. In fact, as several of us 
have noted in the testimony, of the 40 million records, 96 
percent of them come from either visa waiver countries or E.U. 
countries or aspiring E.U. countries in which the requirement 
to populate the database is set.
    Mr. Palazzo. If a country does become in non-compliance, 
what actions would you take?
    Mr. Bersin. The first step would be a communication between 
our visa waiver program office working with components at CBP 
and his if necessary, to point out the deficit, and over time, 
we have not met this situation yet, but over time, there would 
be authority in the Secretary's office with Secretary Johnson 
to take steps to see that that effort was enforced according to 
the law.
    Mr. Palazzo. Okay. Because you haven't had this incidence 
happen yet, what would be what you think a realistic amount of 
time? I mean, 3 months, 6 months, dependent on the severity of 
the non-compliance or----
    Mr. Bersin. Because of the importance to our security 
vetting, we would not want that to be an extended period of 
time.
    Mr. Palazzo. Okay. Do you see any--I mean, I know that 
everybody seems to be in compliance right now, but are there 
any impediments or hurdles to actually providing the 
information that you hear from the partner nations?
    Mr. Bersin. With regard to the visa waiver nations, 
Congressman, as the Chairwoman pointed out at the outset, you 
know, these are our closest allies, these are the countries 
with whom we share the most experience in this area, and all of 
them have developed fairly sophisticated information technology 
systems, operating through the NCB, as Mr. Bray indicated, or 
independently of INTERPOL. So I think with regard to the VWP 
countries, we have the infrastructure in place.
    Mr. Palazzo. As a result of the requirement, do you think 
the sharing has been increased and do you think the program has 
been successful?
    Mr. Bersin. No question about that, yes.
    Mr. Palazzo. Well, thank you, Mr. Bersin.
    I yield back.
    Mrs. Miller. The Chairwoman recognizes the gentleman from 
Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Madam Chairwoman.
    I appreciate you convening this hearing and so quickly 
exploring legislative options so soon after these 
vulnerabilities have been exposed, and look forward to working 
with you on this, and appreciate the testimony that we have 
heard from our experts today.
    Want to thank Mr. Wagner for, and Mr. Bersin for, DHS's 
quick response and now querying out-bound passengers from the 
United States in light of the Flight 370 tragedy and everything 
else that you have described that we can work on, but to build 
upon something the Ranking Member has been asking about in 
terms of capacity building with other countries around the 
world, you responded that there is not a line item currently, 
but can you talk a little bit more, and perhaps starting with 
Mr. Bersin and then continuing with Mr. Wagner, about the 
wisdom of funding this capacity and efforts--in other words, 
providing another carrot for these other countries to 
participate in this?
    Then my second question that you may also want to address 
is, in the same way that we are holding this hearing today and 
exploring legislative options and some of the administrative 
fixes that you have already put in place, maybe talk a little 
bit about what other countries have done over the last 3 weeks 
in the wake of the Flight 370 tragedy.
    So, Mr. Bersin, if you would start.
    Mr. Bersin. So starting with the second question, 
Congressman O'Rourke, in the aftermath of the INTERPOL 
statements, Secretary General Ronald Noble, has been 
publicizing the issue, and countries around the world have 
taken note of the problem, and while we haven't--it is too soon 
to say that it has actually resulted in changes, it has created 
an awareness, a consciousness of the problem that simply did 
not exist before, and I think we will be seeing different 
countries within the constraints of their systems and cultures 
and laws taking action, and we should continue to encourage 
both the populating of the database, but also the screening of 
it.
    With regard to capacity building, there are instances in 
which the Department of Homeland Security has received State 
Department grants through a variety of programs to help 
countries build a capacity. My point is that that is always on 
a grant basis and there is no long-term capacity-building line 
item for DHS to say, we are going to do this and encourage all 
of the countries in North America, from Columbia or Panama to 
the Arctic, to build a system so that any time someone comes 
into the North Americans' airspace or to a North American port, 
we will have insight into who is on those planes. To do that 
would take a large budget.
    Mr. O'Rourke. Any idea, ballpark, scope?
    Mr. Bersin. So Mr. Wagner is in a better position----
    Mr. O'Rourke. Okay.
    Mr. Bersin [continuing]. Case-by-case to give us the 
experience in Panama, perhaps Mexico and others, but the larger 
strategic vision here is that we would say over the next 10 
years, while we can't build the entire panoply of measures that 
we have built here, we can put a minimally required and 
satisfactory system in place from Panama to the Arctic, working 
with our partner countries to do that, but that would take a 
budget appropriation that does not now exist.
    Mr. O'Rourke. I would think every country in the world and 
every person in the world who gets on an airplane has a shared 
interest in us resolving this, so, you know, naturally we have 
our allies that we have already described, the United Kingdom 
is already, you know, vigorously pursuing this, but we also 
have countries like Iran, other countries who have similar 
concerns about the safety and security of their citizens, and 
so in any way that we can provide resources or encourage 
others, especially wealthy countries, to share the burden to 
make sure everyone is participating, I would like us to explore 
that and would love to find either from you or from Mr. Wagner 
just what that cost is so that we know what we are talking 
about.
    Mr. Wagner, do you have any thoughts on this?
    Mr. Wagner. Yeah. I don't have the cost with me today, but 
we did a lot of work with Mexico, Panama, and the Caribbean, 
too, to help these countries, with their authorities and their 
own internal laws and regulations, to collect airline manifest 
information, and then we worked with them and helped fund them 
in buying the systems and deploying the systems to actually go 
through and screen that information. We have our personnel on-
site with them working with this, and then we have agreements 
to exchange information or take some of their information and 
run it through our systems and share what we can with them on 
that.
    So there is a lot of work to do with other developing 
countries, and then there is also the developed world and 
getting a lot of our allies out there to also take like 
approaches to how we do this. You will find varying degrees of 
capacity and authorities and privacy issues with different 
governments doing this. We have done a lot of work with it, but 
really it is the consistent message that, you know, all of our 
allies should be doing it in a similar fashion.
    Mr. O'Rourke. As a follow-up to today's hearing, would you 
be able to come up with a ball-park figure and share that with 
the committee so that we understand, and maybe just based on, 
you know, past experiences with these other countries, what it 
would take to fund the necessary capacity globally? Not that 
the United States needs to bear that burden on its own, but 
just so that we know what that number is, and perhaps that is 
the basis for engaging other countries who might be able to 
help us to fund that, because it is in everyone's interest.
    Mr. Bersin, yes.
    Mr. Bersin. Just one additional comment, and Mr. Bray can 
describe this in finer detail. Actually, there is an 
infrastructure backbone. There is one single that connects the 
190 countries of INTERPOL, and it is the beginning of the kind 
of system that you are talking about, but perhaps Mr. Bray can 
explain a little more what the I-24/7 system is and why it is 
such a potentially important link in the area you are 
exploring.
    Mr. O'Rourke. Madam Chairwoman, is that all right?
    Mrs. Miller. Yes.
    Mr. O'Rourke. I am short on time.
    Mrs. Miller. I note that we have votes in about 5 minutes.
    Mr. Bray. Yes. I will be brief, sir.
    Mr. O'Rourke. Thank you.
    Mr. Bray. The I-24/7 is a backbone that connects the 190 
member countries to not only INTERPOL and its resources, its 
databases, but to each other and directly. The ability of a 
country to utilize this is centered upon its National Central 
Bureau, so the National Central Bureau becomes a cornerstone 
for making sure that these utilities, these tools are made 
available.
    With that said, the United States has been very supportive 
of the INTERPOL membership and the communities, specifically in 
Central America. We helped install sites not only at the NCB's, 
at specialized police units there, but also at border control 
points as well. We are continuing to work, as a matter of fact, 
prior to the airline disaster, we have been working with our 
counterparts in Mexico and other countries, Caribbean as well, 
to determine how we can better and most effectively assist them 
in fully realizing how those utilities and tools may be better 
serviced in their countries.
    We will obviously work with INTERPOL to determine how we 
can best come up with a more global strategy for engaging 
countries, sharing best practices and certainly lessons learned 
from this process. It has been an iterative process for the 
United States. It has been one that has taken time to develop, 
and we would like to enable other countries to ramp up as 
quickly and efficiently as possible.
    Mr. O'Rourke. Thank you for your answer.
    Thank you, Madam Chairwoman. Yield back.
    Mrs. Miller. Thank you.
    Recognize the gentleman from California, Mr. Swalwell.
    Mr. Swalwell. Thank you.
    Mrs. Miller. First the Ranking Member has a comment.
    Ms. Jackson Lee. Well, I just wanted to put on the record, 
thank you very much for your leadership on this issue and the 
letter that you joined with Mr. Hudson on. This is not taking 
from your time, but I do appreciate. I hope that you will 
submit, I would like to submit your letter into the record.
    Mr. Swalwell. Yes, please.
    Mrs. Miller. Without objection.
    Ms. Jackson Lee. Dated on March 13, 2014. Again, thank you 
for your leadership.
    Mr. Swalwell. Thank you.
    Ms. Jackson Lee. I yield. Thank you.
    [The information follows:]
              Letter Submitted by Hon. Sheila Jackson Lee
                                    March 13, 2014.
The Honorable Jeh Johnson,
Secretary, U.S. Department of Homeland Security, 3801 Nebraska Avenue, 
        NW, Washington, DC 20528.
The Honorable John F. Kerry,
Secretary, U.S. Department of State, 2201 C Street, NW, Washington, DC 
        20520.
    Dear Secretaries Johnson and Kerry: We write with great concern 
regarding the security loophole highlighted by the on-going incident 
involving Malaysia Airlines Flight 370 (``Flight 370'').
    While we are still awaiting details on what happened to Flight 370 
we do know that two individuals, Delavar Seyed Mohammad Reza and Pouri 
Nourmohammadi, were able to board an international flight carrying 
American passengers by using stolen passports. While these passports 
were in the Stolen and Lost Travel Documents (SLTD) database of 
INTERPOL, they were not cross referenced against it by either the 
airline or the appropriate authorities. This dramatically illustrates a 
serious flaw in airline security, one that INTERPOL has raised for 
years, but has not been appropriately dealt with by the international 
community.
    While many countries, including the United States, routinely access 
the STLD database, many others do not. In fact, according to INTERPOL, 
passengers boarded airplanes more than one billion times in 2012 
without having their passports screened against its databases. Allowing 
people to use stolen passports to travel about the world puts lives, 
including those of Americans, at risk.
    It is imperative for passenger safety and aviation security that we 
close this loophole to help ensure the safety of the traveling public. 
Beyond assuring us, our colleagues, and the American people, that every 
passport used in international travel to and from the United States is 
always checked against the INTERPOL STLD database, we further request 
details on any type of program or ongoing negotiations encouraging 
other countries to use this database for all travelers on international 
flights.
    While we understand that the United States is limited in its 
ability to alter other nation's travel and security procedures, if 
there are ways that Congress can get involved in encouraging 
responsible behavior that increases the safety of the global flying 
public, we hope that you will let us know.
    We look forward to your prompt response. Thank you.
            Sincerely,
                                             Eric Swalwell,
                                                Member of Congress.
                                            Richard Hudson,
                                                Member of Congress.
                                         Candice S. Miller,
                                                Member of Congress.
                                        Sheila Jackson Lee,
                                                Member of Congress.

    Mrs. Miller. The gentleman from California.
    Mr. Swalwell. Thank you to Madam Chairwoman for allowing me 
to participate, and thank you to the Ranking Member for 
supporting that request.
    As others have stated, my prayers and wishes go out to the 
families of Malaysia Flight 370, but as we have often learned 
from aviation disasters, if there is any hope that has come out 
of it, it is that we learn a lot about our own security and how 
to make passenger safety much better.
    I also want to note that we did, Ms. Jackson Lee and I and 
Chairwoman Miller and Hudson, submit a letter to the 
Departments of Homeland Security and State, and we both--we 
appreciate the swift response that we received back.
    Also, I am working on legislation with Senator Schumer on 
the Senate side to create an incentive for countries to use 
this SLTD database, which is that if they don't, we simply 
won't issue them visas, and I hope that I can work with the 
Chairwoman and the Ranking Member on such legislation.
    Now, Mr. Bersin, you alluded to North America as being a 
concern. That is my concern as well, because I believe that the 
countries we should principally be tracking are ones who have 
airports near our borders: For example, in my colleague's 
district, he has Juarez, Mexico, which has a large 
international airport; in San Diego, you have Tijuana just to 
the south; in Washington State, you have Vancouver airport; and 
of course New York, Montreal, and Toronto are not too far away.
    So my first question is: To what degree are our bordering 
countries to the north and south, Canada and Mexico, and then 
of course in the hemisphere, Panama and other countries, what 
percentage of passengers are being screened against the 
database traveling in and out of those countries?
    Mr. Bersin. So with regard to Mexico, the figure, Mr. 
Wagner can confirm, would be 100 percent in terms of people 
entering Mexico. People could then cross the border and come 
into the United States.
    With regard to Canada, the Canadians are fully cooperative 
with us. They screen. We are in discussions with them about the 
extent of the full screening. They do screen for their own 
citizens, and I think as a result of this incident, we will see 
a complete screening from our neighbors to the north.
    Mr. Swalwell. So does that mean that a flight originating 
in Venezuela and landing in Mexico, 100 percent of the 
passengers would be checked against the database on that 
flight?
    Mr. Bersin. That is correct. With regard to the stolen and 
lost travel document database, yes.
    Mr. Swalwell. Suppose a flight originating from Germany and 
going to Vancouver, would 100 percent be checked on that 
flight?
    Mr. Bersin. Yes, with regard to foreign--with regard to--
against the Canadian database, yes, and against the SLTD when 
there is a secondary inspection, there would be a complete 
check. As I say, we are engaged and Canada is engaged in seeing 
what it can do to complete that cycle.
    With regard to just your point on North America, the reason 
I focus on North America, presumably as you, it is not just the 
neighboring airports, as Juarez and El Paso, San Diego and 
Tijuana, Matamoros and Brownsville, but it is people coming in 
from outside the hemisphere into Central America, for example, 
then traveling overland to the border, so it is important for 
us to actually look at this as a continental problem, not a 
national one.
    I think President Obama certainly in the Beyond the Border 
action plan with Prime Minister Harper and with Canada 
recognizes perimeter security as a critical issue, and I 
believe our Mexican colleagues and partners share this notion 
of perimeter security on a continental basis.
    Mr. Swalwell. Great. Thank you, Mr. Bersin.
    Mr. Bray, we are beginning to learn about I-Checkit, which 
is a point of purchase program with INTERPOL, and what is the 
participation of U.S. airlines and hotels and other tourism 
companies right now as far as checking passports against 
INTERPOL's database at the point of purchase rather than 72 
hours before the flight? I am just talking about the United 
States right now.
    Mr. Bray. With respect to the United States, I would ask 
Mr. Wagner. I believe that all passports are being screened, 
not by the airlines necessarily at the point of purchase, but 
certainly by CVP in the United States. Domestic purchases is 
what we are referring to.
    Mr. Swalwell. Right. But I-Checkit is a program intended to 
have cooperation with the vendors, right, the----
    Mr. Bray. Correct.
    Mr. Swalwell [continuing]. The airlines, the hotels?
    Mr. Bray. Right. So with that, the relationship, that 
public-private partnership relationship exists in the United 
States and has existed for quite some time, and as a matter of 
fact, it is probably a model for the world, and it is one that 
we have taken to INTERPOL and the I-Checkit working group. I-
Checkit is currently in a very developmental stage. INTERPOL is 
beginning to look at how to balance the requirements and the 
concerns of 190 countries with a public-private partnership.
    Having said that, the first models that have rolled out 
have been with hotels, I believe in Montenegro and Monaco, and 
they have seen successes there.
    They are now looking specifically following the Malaysian 
airline disaster at the transportation sector and----
    Mr. Swalwell. But is every purchase within the United 
States to travel outside the United States or every purchase 
outside the United States to travel into the United States 
checked against the database at the point of purchase or is it 
checked closer to the departure or arrival of the flight?
    Mrs. Miller. This will be the final question.
    Mr. Swalwell. Thank you.
    Mr. Bray. It can be--they are checked when the tickets are 
purchased and they are also checked at the counter when they 
are purchased.
    Mr. Swalwell. 100 percent of the time?
    Mr. Bray. In-bound flights to the United States, yes, 100 
percent of the time.
    Mr. Swalwell. Great.
    Thank you, Madam Chairwoman. Yield back.
    Mrs. Miller. Thank you very much.
    I certainly want to thank the witnesses for all being here 
today. Obviously the Members, I think almost all of us, have 
additional questions, so I would invite you all, of course, to 
submit those for the witnesses, and we will ask for a written 
response to the questions.
    Again, I appreciate you coming really on pretty short 
notice. We convened this hearing, I had an idea to do it and 
convened it pretty quickly, particularly for how things move 
here around Capitol Hill, so we appreciate all the witnesses 
coming this morning.
    Pursuant to the Committee Rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, the committee now stands adjourned.
    Thanks again.
    [Whereupon, at 10:25 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Honorable Eric Swalwell for Alan D. Bersin
    Question 1. Assistant Secretary Bersin, with respect to Canada, you 
appeared to testify that right now Canada only screens its own citizens 
going to and from Canada on international travel against the Stolen and 
Lost Travel Documents (SLTD) database on a routine basis. Is that 
correct? What percentage of all passengers flying to Canada are checked 
against SLTD database by Canada? What percentage of all passengers 
leaving Canada by air are checked against the SLTD database by Canada?
    Answer. To clarify, presently Canada screens all travelers' 
documents against a Canadian database of lost/stolen/fraudulent 
documents when they enter Canada. Canada's database is comprised of 
data from Passport Canada, Citizenship and Immigration Canada, and 
provincial authorities, and also includes data provided by foreign 
authorities and Canadian overseas liaison officers. Currently, Canada 
does not screen travelers against the INTERPOL SLTD database during 
primary inspection, but Canadian officers at secondary inspection can 
access the SLTD database and query it when necessary. At present, 
Canada does not systematically screen out-bound travelers against its 
database of lost/stolen/fraudulent documents, but will have the 
capability to do so with the implementation of Interactive Advance 
Passenger Data and Entry/Exit in the air mode.
    Question 2. You also suggested Canada is moving toward 100 percent 
international air passenger screening against the SLTD database. What 
work is the United States doing to help encourage Canada to get to 100 
percent screening? Would this include in-bound and out-bound passengers 
traveling by air? What is your understanding of Canada's current plan 
to reach this goal? When will Canada reach it?
    Answer. Canada has not yet formally committed to 100 percent 
international air passenger screening against the SLTD database. DHS 
has, however, begun initial outreach to our Canadian counterparts to 
discuss this matter and share related best practices that the United 
States has adopted.
    Question 3. Besides Canada and Mexico, which countries in North 
America and Central America, if any, check travel documents of 100 
percent of international travelers entering their country by air travel 
against the INTERPOL SLTD database? Which check 100 percent of such air 
travelers leaving the country?
    Answer. DHS can confirm that the travel documents of all 
international travelers entering the following countries are checked 
against the SLTD database: Antigua and Barbuda; Barbados; Dominica; 
Grenada; Guyana; Jamaica; Mexico; Panama; St. Kitts and Nevis; Saint 
Lucia; St. Vincent and the Grenadines; and Trinidad and Tobago.
    Unfortunately DHS does not have detailed information regarding the 
specific screening practices of all INTERPOL member countries, 
including whether they screen against the SLTD database. However, 
INTERPOL Washington is best positioned to be able to assist in 
gathering this information from the INTERPOL General Secretariat.
    Question 4. In your prepared testimony you note that ``many 
countries do not have advance passenger information capabilities to 
screen travelers prior to arrival.'' Is this lack of infrastructure the 
most significant impediment to use of the STLD database? If not, what 
is? If so, how can the United States help address that problem? What 
else should the United States be doing to encourage countries to scan 
international air passengers against the SLTD database?
    Answer. Many countries lack an advance passenger information system 
and the required infrastructure, which significantly hinders their 
ability to screen in-bound air passengers against the SLTD database 
prior to their arrival. The United States can help address this problem 
through capacity-building efforts and the promotion of international 
security standards. Moreover, the United States can strongly encourage 
countries to routinely report lost and stolen passport data to INTERPOL 
for inclusion into the SLTD database. DHS screens every person seeking 
admission into the United States (whether by air, land, or sea) against 
the SLTD database, so prompting countries that do not currently report 
lost and stolen passport data to do so is critical.
    Question 5. In your prepared testimony you mention that one way the 
Department of Homeland Security (DHS) is helping encourage countries to 
use the SLTD database is through the establishment of the Integrated 
Border Management Task Force (IBMTF). Beyond training officials, what 
is the IBMTF doing to promote the use of SLTD? What else is DHS doing 
in this regard?
    Answer. The IBMTF primarily conducts training operations for border 
management and law enforcement officials regarding utilizing INTERPOL 
tools that are available to them. For example, as part of a 2-week 
program, INTERPOL officials will bring mobile devices to an 
international airport, so that immigration officers can check passports 
against the SLTD and INTERPOL's other datasets. These programs often 
yield positive results including the arrest of wanted persons or the 
denied entry of suspected criminals. DHS is committed to helping 
INTERPOL build and operate the IBMTF, by offering expertise and best 
practices in border management.
    As part of the biennial reviews of VWP countries, DHS evaluates the 
effectiveness of their border screening procedures and immigration 
controls. Among other things, DHS verifies that VWP countries report 
lost and stolen passports to INTERPOL, as required by the VWP statute. 
DHS also used the biennial reviews to encourage the border control 
authorities in VWP countries to search the SLTD database in the 
screening of all international travelers.
    Question 6. Beyond its participation in IBMTF, what specific 
actions has DHS undertaken in the past to encourage other countries to 
use the SLTD database for international air travel? What specific 
actions are planned by DHS to do this in the future?
    Answer. At numerous INTERPOL events and conferences, DHS senior 
leadership has encouraged INTERPOL member countries to use the SLTD 
database to enhance security across the global travel continuum. 
Looking ahead, DHS plans to engage partner countries bilaterally and 
through multilateral fora to further encourage them to report data into 
the SLTD database and to adopt enhanced screening procedures.
       Questions From Honorable Eric Swalwell for Jack P. Wagner
    Question 1. Assistant Commissioner Wagner, I sent a letter to 
Department of Homeland Security (DHS) Secretary Jeh Johnson, asking in 
part about U.S. screening practices. From the response I received from 
DHS, I take it that every single traveler coming into the United States 
is checked against the INTERPOL Stolen and Lost Travel Documents (SLTD) 
database. I want to understand more about the process.
    How much time before a flight is scheduled to take off does U.S. 
Customs and Border Protection (CBP) receive information about passenger 
lists to be able to screen against the SLTD database?
    Question 2. When, after CBP receives information about passengers, 
does it begin screening against the SLTD database? When does it finish 
the check?
    Question 3. According to your testimony, if a hit is found and an 
airline boards the passenger regardless, the airline can be fined. Can 
CBP do anything else to prevent the plane from landing in the United 
States? Or, can it act to prevent the passenger in question from 
disembarking if the plane does come here with that passenger?
    Question 4. I understand what happens if CBP finds a hit in its 
screening. But, what happens if the screening is not completed before 
the scheduled take-off?
    Answer. The Intelligence Reform and Terrorism Prevention Act 
(IRTPA) of 2004 required the Federal Government where practicable to 
conduct Terrorist Watch List screening prior to departure. To meet 
IRTPA requirements, U.S. Customs and Border Protection (CBP) modified 
the Advance Passenger Information System (APIS) and developed 
interactive communications to provide carriers with real-time terrorist 
watch list screening results. CBP now starts receiving available APIS 
data from airlines 72 hours prior to departure and, under 19 CFR 
122.49a and 122.75a, airlines must transmit all passenger data no later 
than the time of securing the aircraft doors for departure.
    Passenger data that contains a passport number is immediately 
screened against the SLTD upon receipt. Any re-submission of passport 
data prompts a re-screening through the SLTD. The initial check is 
completed electronically in a matter of seconds and a new query is 
executed each time passport data is submitted.
    CBP has the authority per 19 CFR 122.14(d) to revoke landing rights 
of a carrier, though this should not be invoked absent exigent 
circumstances. CBP has a ``detain on-board'' process for vessels but 
not for aircraft since, in many cases, the aircraft might not 
immediately return to its destination or the aircraft may fly on to 
another location. In these cases the traveler would be detained at the 
port of entry for processing and, if they are found inadmissible, the 
airline would return the traveler on the next flight to the point of 
embarkation.
    The SLTD query is designed to repeat until results are received. If 
a response to a SLTD query is not received electronically within 7 
minutes, the query is considered ``timed out'' and a new query is 
executed. If results were received after departure, (for example, if 
the INTERPOL SLTD connection was down for a significant amount of 
time), the hit would be displayed for CBP officers at the port of entry 
and adjudicated at the time of arrival.
      Questions From Honorable Eric Swalwell for Brenda S. Sprague
    Question 1a. What specific actions has the State Department taken 
to encourage other countries to check passports by travelers used in 
international flights against the SLTD database, as opposed to merely 
share data with INTERPOL?
    Answer. On April 18, the Department of State, on behalf of the 
Department of Homeland Security, reached out to INTERPOL member 
countries to gather information about their practices related to the 
access and use of the Stolen and Lost Travel Document Database (SLTD). 
We also used this as an opportunity to remind member countries of the 
importance to both input their lost/stolen data into the SLTD and to 
use the SLTD when screening travelers. A survey targeting specific 
usage practices has been forwarded to INTERPOL members to solicit how 
and under what circumstances border control officials utilize the SLTD. 
The results of this survey will help the State Department tailor our 
efforts to encourage elimination of weaknesses or inconsistencies in 
the usage and access of the SLTD.
    Question 1b. In light of the Malaysia Air incident, what specific 
steps does the State Department plan to further encourage countries to 
check the passports of passengers in international flights against the 
SLTD database?
    Answer. The goal of sharing lost and stolen passport data with 
governments has been endorsed repeatedly as an international objective, 
including through the International Civil Aviation Organization (ICAO), 
European Union, Organization for Security and Cooperation in Europe, 
and G-8 processes. The Department of State is active and engaged with 
each of these multilateral organizations. We continue to support 
international efforts and encourage all governments to share and use 
this vital information.
    We believe that the best way to encourage other countries to check 
the passports of all passengers on international flights against the 
SLTD database is through an active engagement with the ICAO. The next 
opportunity for discussions on this issue is at the next ICAO Technical 
Advisory Group on Machine Readable Travel Documents Meeting on May 21 
in Montreal, Canada.
    Question 2a. I want to ask about reasons the SLTD database may not 
be used.
    The State Department automatically screens visa applicants against 
the INTERPOL database. Does it find this to be burdensome or otherwise 
difficult?
    Answer. Visa processing posts see an average of only around 90 
applications per month world-wide with passport hits from the Stolen 
and Lost Travel Document (STLD) database. This is a small fraction of 
the visa workload, considering that the Department has over 220 
overseas posts that processed more than 11.5 million visa transactions 
in fiscal year 2013.
    Consular officers are required to definitively resolve all hits 
returned by SLTD checks before issuing visas. In the majority of cases 
involving visa applicants with SLTD hits, posts found that passports 
were reported as lost or stolen when they were misplaced by holders who 
later recovered them, or lost or stolen passports were listed on the 
visa application, but applicants presented a new passport in support of 
the application.
    While the number of visa applicant passport hits in the SLTD is 
small, the State Department finds that the process and the investment 
in information technology to establish the capability to conduct 
clearances against the SLTD is not unduly burdensome, given the 
potential to deter mala fide travelers.
    Question 2b. What problems have other countries cited to the State 
Department for not checking passports against the SLTD database? Do you 
think these problems are legitimate or are they just excuses for not 
having the will or desire to follow through? If the problems are 
legitimate, what can and should the United States do to assist?
    Answer. The Department of State believes that accurate answers to 
these two questions can only come from INTERPOL--the organization 
charged with operating the SLTD. However, in the Department of State's 
interactions on this and other similar issues, many countries voice 
concerns about resources and available technological infrastructure. 
Weak governance structures might also impede the development of 
improved reporting mechanisms within some member countries.
         Questions From Honorable Eric Swalwell for Shawn Bray
    Question 1. Do you believe checking passports at the point of 
purchase would be an improvement over our current system? Why or why 
not?
    Answer. Unless the process remained inherently governmental, 
INTERPOL Washington would not recommend this course of action. Point-
of-purchase sales, particularly for airlines, can occur as far as a 
year in advance. The overwhelming majority of SLTD hits are 
administrative in nature as opposed to involving persons committing 
criminal acts. Of these hits, most fall into two main categories: 
Individuals traveling on passports previously issued to them but 
reported as lost or stolen, and individuals using travel agencies or 
automated systems, and whose stored passport information has not been 
changed since the document was reported lost or stolen. Point-of-
purchase sales, particularly for airlines, can occur as far as a year 
in advance. Transactions made months or days in advance will therefore 
continue to generate administrative hits, creating additional resource 
strains on border and law enforcement officials.
    On the other hand, if airlines or cruise lines were made directly 
aware that a passport used to make a reservation was not valid, they 
could reconcile the issue with the traveler without the need for law 
enforcement intervention. The number of administrative hits would be 
thereby greatly reduced, allowing law enforcement authorities to 
concentrate on unresolved SLTD hits, including those that are 
potentially criminal in nature. The guidelines for how this process 
would work would need to be clearly defined.
    Question 2. What is the status of the I-Checkit system? What is 
your projection for when it will be widely available? What impediments 
are there to its development and use?
    Answer. INTERPOL's I-Checkit Program is still in the developmental 
stage. An initial, small-scale pilot of the program has been scheduled 
for some time in late 2014 or early 2015. A time line for full 
implementation has yet to be announced.
    While I-Checkit is meant to encompass a variety of areas, it is 
presently focused on the transportation sector. Impediments largely 
stem from differences in national legislation and policies among the 
INTERPOL member countries and primarily include privacy issues 
surrounding the use of travel document data and the direct engagement 
with private-sector partners by INTERPOL.
    Question 3. Which countries rarely, if ever, screen international 
passenger against the INTERPOL SLTD database?
    Answer. In 2013, approximately 91 percent of all queries made 
against INTERPOL's SLTD database by INTERPOL member countries were made 
by the United States, United Kingdom, United Arab Emirates, and Japan. 
While many of the 167 signatory countries and international 
organizations participating in the program search the database on a 
regular basis, the majority of them do not use the database to screen 
international passengers; however, they do use it for investigative 
purposes.
    Question 4. With respect to countries in North America and Central 
America, when, if ever, are travel documents checked for 100 percent of 
international travelers entering by air travel against the INTERPOL 
SLTD database? For which countries are 100 percent of such air 
travelers leaving the country checked?
    Answer. The United States is currently the only country known to 
perform SLTD checks on 100 percent of all passengers traveling in-bound 
or out-bound by air.
    Question 5. What percentage of the times when international air 
travelers are screened against the INTERPOL SLTD database is a hit 
found which suggests possible criminal theft?
    Answer. On average, only a handful of SLTD hits are the result of a 
criminal act. The exact number is hard to obtain since many countries 
do not report the final disposition of SLTD hits that occur in their 
countries. INTERPOL Washington is currently proposing INTERPOL require 
greater visibility and accountability by its member countries for the 
final disposition of all SLTD hits.
    Question 6a. Which of these reasons (national policy; lack of 
connection or cooperation between law enforcement, issuing, and border 
control authorities; and capacity, i.e. cost of deployment and existing 
infrastructure) is the primary one for why countries do not screen 
international air travelers against the SLTD database?
    Answer. The reasons for not screening international air travelers 
against the SLTD database vary from country to country. For some, 
particularly underdeveloped countries, the lack of an adequate 
information technology (IT) infrastructure creates communication and 
capacity issues that hamper implementation of the system. Other factors 
that have been cited include cost, national policy, privacy concerns, 
and various bureaucratic obstacles--regardless of the state of the 
country's IT infrastructure. Any combination of these factors makes 
this problem correspondingly more complex and challenging to address.
    It should also be noted that merely being connected to the database 
does not optimize its use in screening international air travelers. The 
timely resolution of hits against the database is also indispensable in 
preventing potentially illicit travel. For some countries with limited 
law enforcement and border control assets and capabilities, this 
presents a particularly difficult and continuing challenge.
    It's important that the United States work closely with INTERPOL 
and its member countries to share best practices and determine where we 
might be able to assist in capacity building. To that end, INTERPOL 
Washington is currently working with the Department of Homeland 
Security (DHS) and the Department of State (DoS) on a global initiative 
to gain a better understanding of the obstacles impeding other 
countries' ability to use the SLTD database on a consistent and regular 
basis.
    Question 6b. What can the United States do to help countries 
address this primary reason? What can we do to address any of the other 
obstacles?
    Answer. Supported by the Department of Justice and DHS, INTERPOL 
Washington is partnering with DoS to establish a whole-of-government 
approach to encourage those foreign ministries responsible for the 
issuance of travel documents to work with INTERPOL and their respective 
National Central Bureaus (NCB) to improve cooperation and fully 
participate in the SLTD program. Regionally speaking, INTERPOL 
Washington is working with personnel from the U.S. Embassy in Mexico 
City, the government of Mexico, and NCB Mexico City to identify the 
specific issues that impact them and neighboring countries from fully 
participating in the SLTD program. Once clearly identified, INTERPOL 
Washington intends to seek support for the requisite technical and 
diplomatic assistance. The results of this initiative will then be used 
as an example of best practices that could be adopted globally.
    Additionally, we are encouraging the INTERPOL General Secretariat 
in Lyon, France to enhance the management and oversight of the SLTD 
Program in order to foster improvements that would ensure SLTD and its 
technology remains current and increases the ease of access and use by 
more INTERPOL member countries. Our leadership and efforts to improve 
the SLTD program were recently recognized when INTERPOL Washington was 
voted to chair INTERPOL's multi-national SLTD Advisory Committee in 
Lyon, France. This leadership position on the advisory committee will 
provide the United States with a unique platform to share best 
practices, influence policy, and help guide operations pertaining to 
INTERPOL's SLTD program.

                                 [all]

</pre></body></html>
